<html>
<title> - HILL, RISPOLI AND SIGAL NOMINATIONS</title>
<body><pre>[Senate Hearing 109-127]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-127

                  HILL, RISPOLI AND SIGAL NOMINATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   ON

THE NOMINATIONS OF JILL L. SIGAL TO BE AN ASSISTANT SECRETARY OF ENERGY 
 FOR CONGRESSIONAL AND INTERGOVERNMENTAL AFFAIRS; DAVID R. HILL TO BE 
GENERAL COUNSEL OF THE DEPARTMENT OF ENERGY; AND JAMES A. RISPOLI TO BE 
       ASSISTANT SECRETARY OF ENERGY FOR ENVIRONMENTAL MANAGEMENT

                               __________

                             JULY 12, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
23-405                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
                  Bob Simon, Democratic Staff Director
                  Sam Fowler, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     3
Bunning, Hon. Jim, U.S. Senator from Kentucky....................     4
Burr, Hon. Richard M., U.S. Senator from North Carolina..........
  3
Crapo, Hon. Mike, U.S. Senator from Idaho........................     1
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Hill, David R., Nominee to be General Counsel of the Department 
  of Energy......................................................     6
Rispoli, James A., Nominee to be Assistant Secretary for 
  Environmental Management of the Department of Energy...........     7
Sigal, Jill Lea, Nominee to be Assistant Secretary, Congressional 
  and Intergovernmental Affairs, Department of Energy............     9
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     4

                                APPENDIX

Responses to additional questions................................    27

 
                  HILL, RISPOLI AND SIGAL NOMINATIONS

                              ----------                              


                         TUESDAY, JULY 12, 2005

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Pete V. Domenici, 
chairman, presiding.

          OPENING STATEMENT OF HON. PETE V. DOMENICI, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. The hearing will please come to order. We're 
a couple of minutes late and for that I apologize.
    We're here this morning to consider the following 
nominations for positions within the Department of Energy: 
David R. Hill to be General Counsel, James A. Rispoli to be 
Assistant Secretary for Environment and Management, and Jill 
Sigal to be Assistant Secretary for Congressional and 
Intergovernmental Affairs.
    Before we begin, our colleague, Senator Crapo, has asked to 
say a few words. Welcome to the committee, Senator, and we'd be 
glad to hear from you.

          STATEMENT OF HON. MIKE CRAPO, U.S. SENATOR 
                           FROM IDAHO

    Senator Crapo. Thank you very much, Mr. Chairman, and 
Ranking Member Bingaman and other members of the committee.
    It's my pleasure to be here today to introduce Jill Sigal 
to the committee as the nominee for Assistant Secretary of 
Energy for Congressional and Intergovernmental Affairs. I've 
known Jill since my first day in Congress, as a new member of 
the House of Representatives in 1993. I've come to know her 
both professionally and personally, and I can tell you that she 
is a gifted attorney, a devoted mother, and a dedicated public 
servant. She's an upstanding woman of high character, who I'm 
honored to call my friend.
    Jill has been a respected authority on energy policy and 
environmental management issues for over 20 years, and has 
extensive experience as a liaison to Congress for the 
Department of Energy. Throughout her time at the Department, 
Jill has been an indispensable partner in highlighting and 
championing the important work of the Idaho National Laboratory 
in my home State. As president of her own firm, Jill served as 
a successful advocate and counsel to several private company 
clients, and specialized in developing and implementing 
legislative strategies on environmental issues.
    I had the opportunity to work with her on many issues 
before Congress of direct import to Idaho's natural resource 
community. In this role, Jill consistently demonstrated herself 
to be a thoughtful and impassioned supporter of reasonable 
environmental policies. Upon her return to public service, I 
have once again found her to be a committed and knowledgeable 
promoter of our Nation's energy priorities.
    I know many of you have worked with Jill as this committee 
has developed the energy bill, and I'm confident that you've 
found her to be an articulate advocate for the administration. 
Jill knows that her role is to be responsive to Members of 
Congress, and on this point, I hope that you would all agree 
that Jill has been aggressive in bringing our concerns to the 
leadership at DOE.
    As a successful businesswoman, lawyer and public servant 
who will now work, following confirmation, to promote the 
administration's policies and legislative initiatives to 
Congress and other Federal agencies, Jill will need to call on 
all her skills as we proceed toward completion of the 
comprehensive energy bill this month.
    Mr. Chairman, I wholeheartedly support Jill Sigal's 
nomination as Assistant Secretary of Energy for Congressional 
and Intergovernmental Affairs. I believe she is a committed 
individual who will do her very best to serve the United States 
and further our commitment to a thoughtful national energy 
policy and a cleaner environment. She's a take-charge, decisive 
and effective advocate for the Department on Capitol Hill. I 
urge you and the committee to swiftly and favorably report her 
nomination to the Senate for full confirmation.
    And on a personal note, I'd like to say--this is a little 
bit of a tender note--Jill lost her mother just recently. And 
her mother was also a special friend to me. She provided 
tremendous support to me when I faced a battle with prostate 
cancer--as I indicated, we have strong family ties and 
friendships. And I know that she wanted to be here today, and 
Jill wanted her to be here today, and I'm confident that she 
is. And I just wanted to let Jill and her family know of my 
deep support and thoughts about her mother as we go forward 
with this very important hearing.
    Mr. Chairman, I thank you again for providing me the 
opportunity to speak on behalf of Jill Sigal's nomination, I 
look forward to working with you, Jill, and others in Congress 
to resolve the pressing energy and environmental issues facing 
our Nation today. Thank you.
    The Chairman. Thank you.
    Ms. Sigal, we will proceed. We won't start with you, but we 
do want to share this time of grief with you. And you could 
have asked us to delay, but I understand it was your choice to 
proceed today, so----
    Ms. Sigal. Thank you, Mr. Chairman.
    The Chairman. Now, I'm going to ask--there are a lot of 
people present. That must mean that you have some family in 
attendance. Before I ask you to present to us your families, I 
want to note the presence of Secretary Bodman. Mr. Secretary, 
we thank you for coming. It shows that you care, and that you 
stand behind and support your nominees, and we're very hopeful 
that we can proceed with dispatch with the job we have to do. 
Much of it's already been done, but we will do that in due 
course.
    Having said that, we would like now to start with Mr. Hill, 
and ask you if you would please introduce any relatives that 
you would like us to know are here. And then, Mr. Rispoli, and 
then, Jill, we will ask you to do the same.
    Mr. Hill. Thank you, Mr. Chairman.
    I'd like to introduce my wife, Kristina Hill, and our three 
beautiful daughters, Anna, Margaret and Julia. I also would 
like to introduce other family members that are here today: my 
sister, Carolyn J. Hill, and her husband, Andreas Lehnert; my 
sister-in-law, Laura J. Hagg; and my niece, Katherine Hagg. 
Thank you, Mr. Chairman.
    The Chairman. Thank you. Did one of them disappear?
    Mr. Hill. I think maybe the baby had to make a quick exit 
to the hallway, yes.
    The Chairman. We don't mind the noise if you want to bring 
the baby back.
    Mr. Hill. Thanks, Mr. Chairman.
    The Chairman. Mr. Rispoli.
    Mr. Rispoli. Mr. Chairman, Senator Bingaman, members of the 
committee, I would like to introduce my wife, Carol, who is 
here today, and also my daughter Christina, and her husband, 
Kevin Thomasson, who drove up from North Carolina to meet with 
us, from Raleigh, North Carolina to be with us today. They 
have, within the last year, delivered to us our first 
grandchild, who is not here with us today. Our son Joseph would 
be here, except in 4 days in Austin, Texas, he will be marrying 
Mandy Jenkins, so the family will be heading out shortly for 
that event later this week. Thank you for the opportunity.
    The Chairman. Thank you very much.
    Jill, would you now, if you care to, introduce any of your 
relatives who are here?
    Ms. Sigal. Yes, sir. Mr. Chairman, I'm here with my 
husband, Bob Muth, and our wonderful 4 year old son, Harrison. 
And sitting behind them is my sister, Pam, and her husband Paul 
Kraszewski. And I think I have other relatives who are 
listening in on the live webcast.
    The Chairman. Okay. Thank you very much, thank you very 
much. Welcome to all of you. And now I might ask if there are 
any Senators who would like to make a comment or two before we 
proceed?

         STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR 
                        FROM NEW MEXICO

    Thank you, Mr. Chairman. I just want to welcome the 
nominees. I think they're all well-qualified. I compliment the 
President on his nominations, and also Secretary Bodman, and 
appreciate him being here to lend moral support to them this 
morning. Thank you.
    The Chairman. I also would note the presence of Deputy 
Secretary Clay Sell. Thank you very much for coming, it's 
always a pleasure to have you here.
    Senator from Wyoming.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman. I have to go to 
another meeting, but I did want to welcome all of you here, and 
thank you for your willingness to serve. And just generally, 
because I won't be able to be here, I just want to make the 
comment for all of you that in order to have the kind of energy 
development that we need and certainly want to continue to have 
over the country, I urge you all to take a hard look at the 
ways in which we must do this to protect the environment, and 
we must continue to do that. On the other hand, if we could go 
through those processes in a little more efficient way, it just 
seems to me that often that's what's holding us up, that's 
what's being so expensive, that we can do that job efficiently, 
but we could do it much better than we do it, by working with 
other agencies and other parts of government to go through this 
task without reducing the efficiency or the effectiveness of it 
and make it more efficient, and all you could do in that area, 
I would appreciate it. Thank you, sir.
    The Chairman. Senator Bunning.

          STATEMENT OF HON. JIM BUNNING, U.S. SENATOR 
                         FROM KENTUCKY

    Senator Bunning. Thank you, Mr. Chairman. I'm pleased to 
welcome our nominees here before us today. Their nominations 
are very important, given the issues--particularly that 
Kentucky has in Paducah. As you know, my legislation moved the 
Energy Employees Compensation Program to the Department of 
Labor. Although the program is already operating, I expect each 
of you to take responsibility to continue a smooth transition 
of this program. The DOE has taken over 2 years to award the 
small business cleanup contract at the Paducah Plant. As a 
result of inadequate procurement procedures and protests, 
members of my community continue to be in the state of 
uncertainty. I expect you all to ensure a timely and accurate 
resolution of this contract, and ensure future procurement is 
handled expeditiously and correctly. If the Senate confirms 
you, I expect you to work hard to make sure that the DOE 
effectively manages a Paducah Plant. Thank you very much for 
being here.
    The Chairman. Thank you. Senators, anything further?
    I would just make a general observation to all three of 
you. I note with some degree of past involvement that you've 
all taken tough jobs--we'll go through that as we inquire of 
you individually--and I want to say that it's particularly 
pleasing to me to see people take these jobs who seem to be 
excited about them. I mean, one evidence of being excited is to 
bring your family to a hearing. Some people seem to get kind of 
staid in their way and sort of seem like they're being shoved 
into these jobs, but you seem to have some smiling faces. We 
hope that will be the case a year from now when we call you up 
here and you try to implement some of the jobs you have to do.
    Now, let's move on. The rules of the committee, which apply 
to all nominees, require that they be sworn in, in connection 
with their testimony, so would all of you please rise and raise 
your right hands?
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth?
    Mr. Rispoli. I do.
    Mr. Hill. I do.
    Ms. Sigal. I do.
    The Chairman. Please be seated.
    Now, before you begin your statements, I'll ask three 
questions that are addressed to each nominee before this 
committee. Each of you will please respond separately to each 
question. We'll start on this side with you, Mr. Rispoli.
    Would you be available to appear before this committee and 
other congressional committees to represent departmental 
positions and respond to issues of concern to the Congress?
    Mr. Rispoli. I will, Mr. Chairman.
    Mr. Hill. I will.
    Ms. Sigal. I will.
    The Chairman. All right. Each of you, are you aware of any 
personal holdings, investments or interests that could 
constitute a conflict, or create the appearance of such a 
conflict, should you be confirmed and assume the office for 
which you have been nominated by the President?
    Mr. Rispoli. Mr. Chairman, my investments, personal 
holdings and other interests have been reviewed both by myself 
and the appropriate ethics counselors within the Federal 
Government. I have taken appropriate action to avoid any 
conflicts of interest. There are no conflicts of interest, or 
appearances thereof, to my knowledge.
    The Chairman. Mr. Hill.
    Mr. Hill. Mr. Chairman, my investments, personal holdings 
and other interests have been reviewed both by myself and the 
appropriate ethics counselors within the Federal Government. I 
have taken appropriate action to avoid any conflicts of 
interest. There are no conflicts of interest, or appearances 
thereof, to my knowledge.
    Ms. Sigal. Mr. Chairman, my investments, personal holdings 
and other interests have been reviewed both by myself and the 
appropriate ethics counselors within the Federal Government. I 
have taken appropriate action to avoid any conflicts of 
interest. There are no conflicts of interest, or appearances 
thereof, to my knowledge.
    The Chairman. Thank you very much. Now, each of you have to 
answer one additional question. Are you involved with, or do 
you have any assets held in blind trust?
    Mr. Rispoli. Mr. Chairman, no, I do not.
    The Chairman. Mr. Hill?
    Mr. Hill. No, sir.
    The Chairman. Ms. Sigal?
    Ms. Sigal. No, sir.
    The Chairman. All right. Now, we're going to proceed in the 
following manner. Each of you are now going to make brief 
statements. I encourage you to summarize your statements that 
you've presented for filing in the record so that we'll have 
plenty of time for Senators to ask questions. We're going to 
start with Mr. Hill, followed by Mr. Rispoli, and then by Ms. 
Sigal. Would you proceed in that order with your statements, 
following the admonition about being brief, not just because of 
us, it's better for you if you're brief.

 TESTIMONY OF DAVID R. HILL, NOMINEE TO BE GENERAL COUNSEL OF 
                    THE DEPARTMENT OF ENERGY

    Mr. Hill. Thank you, Mr. Chairman.
    Mr. Chairman, Senator Bingaman, and members of the 
committee, it's a great honor for me to appear before you today 
as the President's nominee to be General Counsel at the U.S. 
Department of Energy. I appreciate the committee holding this 
hearing and for considering my nomination. I also want to thank 
Secretary Bodman and Deputy Secretary Sell for being here this 
morning, and for recommending me to the President for this 
position.
    If confirmed and appointed as the Department's next General 
Counsel, it would be my privilege to work with this committee, 
as well as my colleagues within the Bush administration, to 
carry out the Department of Energy's many important 
responsibilities in the energy, defense, science and 
environmental areas.
    If confirmed, I commit that I will do everything I can to 
help the Department accomplish its missions, which are so 
critical to the Nation's safety and security. Thank you, again, 
for holding this hearing and for considering my nomination. It 
would be an honor and a privilege for me to serve the American 
people as General Counsel of the U.S. Department of Energy. 
Thank you, sir.
    The Chairman. Thank you very much. So far, David's ahead.
    [Laughter.]
    [The prepared statement of Mr. Hill follows:]

          Prepared Statement of David R. Hill, Nominee to be 
            General Counsel of the U.S. Department of Energy

    Mr. Chairman, Senator Bingaman, and members of the Committee, I am 
deeply honored to appear before you today as the President's nominee to 
be General Counsel of the United States Department of Energy.
    I want to express my thanks to President Bush for nominating me to 
serve in this position, and to Secretary Bodman for recommending me to 
the President. If I am confirmed, it would indeed be a privilege to 
serve as the Department's General Counsel under the leadership of 
President Bush, Secretary Bodman and Deputy Secretary Clay Sell.
    I would like to introduce my wife Kristina Hill, who is here with 
me today, along with our three beautiful daughters, Anna, Margaret and 
Julia. I want to publicly thank Kristina for her constant support and 
encouragement, which have allowed me to serve in my present position at 
the Department of Energy, and will allow me to continue to serve.
    I also would like to introduce my sister Carolyn J. Hill. My 
parents Ronald and Shirley Hill, who still live in Smithville, Missouri 
where I grew up, and my brother Roger W. Hill, could not be here today. 
I do want to express my thanks to my parents, to whom I am forever 
grateful for everything they have done for me.
    I currently serve as Deputy General Counsel for Energy Policy at 
the Department of Energy. In that position, which I have held since 
March 2002, I have had the opportunity to work with many of the 
Department's programs and with senior officials at the Department and 
throughout the Administration. I also have worked with the staff of 
this Committee and of some of the Committee's Members on a variety of 
matters. I look forward to continuing to work with the Committee, in my 
present position and in the position of General Counsel should I be 
confirmed, toward the goal of completing work on the pending 
comprehensive energy bill, and then in carrying out its many important 
provisions.
    In my current position at DOE, I have provided legal advice and 
analysis on a variety of statutory, legislative, regulatory, 
administrative and policy issues. In performing those duties, I have 
worked with many of the career lawyers at the Department. If confirmed 
as DOE's General Counsel, I would have the honor of leading an 
organization with very high professional standards and a strong 
commitment to public service.
    Most of my legal career prior to joining DOE was spent in private 
practice. I was a partner at the law firm of Wiley, Rein & Fielding 
here in Washington, D.C., and subsequently was a partner at Blackwell 
Sanders Peper Martin in Kansas City, Missouri. Early in my career I was 
an associate at Wilmer, Cutler & Pickering in Washington, DC. My work 
in private practice spanned a broad range of regulatory, litigation and 
corporate work.
    I also served as associate counsel on the staff of the U.S. House 
of Representatives Committee on Agriculture from 1991 to 1993, and 
began my legal career as a clerk for Judge James K. Logan of the U.S. 
Court of Appeals for the Tenth Circuit. I received my law degree from 
the Northwestern University School of Law in Chicago, Illinois, and my 
bachelor's degree from the College of Agriculture at the University of 
Missouri at Columbia.
    I have a deep respect for both the importance and the difficulty of 
the missions that Congress and the American people have entrusted to 
the Department of Energy. Each of the Department's four strategic 
goals--which focus on defense, energy, science and the environment--
involve activities and responsibilities that present difficult and 
interesting legal challenges. While the solutions to these challenges 
are rarely easy or uncomplicated, I believe that our success in 
addressing them is critical not only to the safety and security of the 
American people, but indeed to the safety and security of people 
throughout the world. If confirmed and appointed as DOE's General 
Counsel, I am committed to doing everything I can to work both within 
the Administration, with this Committee and with the Congress to help 
the Department succeed in carrying out its missions.
    In closing, I want to again thank President Bush and Secretary 
Bodman for the trust they have placed in me. I also want to thank the 
Committee for holding this hearing and considering my nomination to be 
the Department of Energy's next General Counsel. It would be an honor 
and a privilege for me to serve the American people in this position.
    Mr. Chairman, that concludes my prepared statement. I would be glad 
to answer the Committee's questions at this time.

    TESTIMONY OF JAMES A. RISPOLI, NOMINEE TO BE ASSISTANT 
  SECRETARY FOR ENVIRONMENTAL MANAGEMENT OF THE DEPARTMENT OF 
                             ENERGY

    Mr. Rispoli. Mr. Chairman, Senator Bingaman, members of the 
committee, it is a privilege for me to appear before you today 
as the President's nominee to be Assistant Secretary for 
Environmental Management in the Department of Energy. I thank 
the President and Secretary Bodman for their support, and I am 
honored to have been asked by them to serve in this position. I 
especially thank the Secretary and Deputy Secretary Sell for 
being here to support us today.
    I pledge to you, Mr. Chairman, and to the members of this 
committee that if confirmed, I will work closely with you and 
all of the Congress in addressing the many issues that we face 
in the environmental management program.
    I do have just a few highlights from my statement for the 
record to underscore. I understand that the environmental 
management challenges of the Department of Energy are great, 
and I welcome the opportunity to begin working to address them, 
if I am confirmed. It's my view that the proper leadership and 
management of the professionals who work in this program can 
deliver success. I want you to know that I'm committed to 
safety, and I believe that safety and environmental cleanup are 
inextricably joined because the whole purpose of the cleanup is 
for the safety and security of our citizens, our communities 
and our Nation.
    I commit to you, the members of the committee and other 
congressional committees, that if I am confirmed, I will 
communicate openly with you, with the States, and with other 
stakeholders. I fully expect to bring an open and forthright 
approach to my dealings with my constituents and stakeholders 
of the program. I will devote my full energies and my 
leadership and management experience to deliver results to the 
American people, if I am confirmed.
    Mr. Chairman, members of the committee, thank you. I'm 
willing to take your questions.
    The Chairman. Thank you very much.
    [The prepared statement of Mr. Rispoli follows:]
    Prepared Statement of James A. Rispoli, Nominee to be Assistant 
   Secretary for Environmental Management of the Department of Energy
    Good morning, Mr. Chairman, Senator Bingaman, Members of the 
Committee.
    It is a privilege for me to appear before you today as the 
President's nominee to be the Assistant Secretary for Environmental 
Management at the U.S. Department of Energy. I would like to introduce 
my wife, Carol, who is here with me today. Since our marriage some 36 
years ago, she and our two children have supported me in my service to 
our country, as I was for 26 years a career military officer, mostly as 
a Civil Engineer Corps officer in the United States Navy. Without the 
support of Carol and our two children throughout those years, I am 
convinced I would not be here before you today. I thank the President 
and Secretary Bodman for their support, and I am honored to have been 
asked by them to serve in this position. I pledge to you, Mr. Chairman, 
and to the members of this Committee, that if confirmed to this 
position, I will work closely with you and all of the Congress in 
addressing the many issues that we face in the environmental management 
program.
    My formal education is as a civil engineer, educated as such to the 
Master's degree level. I also earned an advanced degree in business, 
and from my earliest days of practice I have had a special interest in 
environmental issues as related to engineering and construction. I have 
managed facilities as the public works officer and environmental 
officer at naval installations. Additionally, I have served as the 
Navy's manager of environmental cleanup for all its ashore 
installations, a position similar to the one for which I have been 
nominated at the Department of Energy. I have first hand experience in 
the Federal sector as an engineer in leadership positions , a manager 
of environmental programs, and as a contracting officer. Complementing 
that Governmental experience, I have served as a senior officer in two 
engineering firms that specialized in environmental cleanup.
    I understand that the environmental management challenges of the 
Department of Energy are formidable, as I have been involved over the 
past several years with the capital projects in the Environmental 
Management portfolio. I welcome the opportunity to begin working to 
address these challenges if I am confirmed. With that said, it is my 
view that with proper leadership and management, the professionals who 
work in this program, both Federal and contractor, can deliver success. 
We can do this with the use of industry standard practices for project 
management such as defining projects, with achievable targeted 
schedules, milestones and costs. I believe that by reinforcing the 
application of industry standard practices for these projects, we can 
manage them with better effectiveness and reliability. For example, we 
will be able to project future resource needs across the planning 
horizon with greater credibility. And we will be able to better manage 
to improve success in delivering on our commitments. I look forward, if 
confirmed, to leading this organization I hope the Committee will find 
that my background qualifies me for this position, and has given me the 
leadership and management tools for the task at hand.
    I am committed to safety, and in my view, safety and environmental 
cleanup are inexorably joined. I believe that the cleanup of our sites 
can not be accomplished without superior safety performance in our 
daily work. Only by operating safely can we achieve the goals and 
schedules we have set. This is paramount, because the whole purpose of 
the cleanup of these sites is for the safety and security of our 
citizens, communities and nation. At the same time, I know that I need 
to learn and understand the strengths and weaknesses of this 
environmental cleanup program. I know that we have had successes and we 
have had setbacks, and that the setbacks have resulted in public 
disappointment and disappointment in the Congress. If confirmed to the 
position of Assistant Secretary, I will take this mantle of 
responsibility; I will do so with a clear motivation to improve our 
performance, to succeed, to deliver, and to be honest with you and all 
the stakeholders in the development of expectations and the execution 
of plans for this program.
    I know a number of people throughout the Environmental Management 
organization. I have great respect for them and the challenges they 
face, and overcome, every day. I look forward, if confirmed, to meeting 
the many more Federal and contractor employees who are engaged in these 
efforts, to understand fully how they have set their targets, and how 
they are managing their projects so that they will meet these targets.
    I commit to you, the Members of this Committee, and the other 
Congressional Committees, that if I am confirmed I will communicate 
openly with you, the States, and other stakeholders. My entire career 
has been built on honesty and integrity, and I fully expect to bring an 
open and forthright approach to all my dealings with the constituents 
and stakeholders of this program. I intend to devote my full energies 
and my leadership and management experience to deliver results for the 
American people.
    Mr. Chairman and Members of the Committee, I will be pleased to 
answer any questions you may have. Thank you.

    The Chairman. Ms. Sigal.

TESTIMONY OF JILL LEA SIGAL, NOMINEE TO BE ASSISTANT SECRETARY, 
  CONGRESSIONAL AND INTERGOVERNMENTAL AFFAIRS, DEPARTMENT OF 
                             ENERGY

    Ms. Sigal. Mr. Chairman, Senator Bingaman, members of the 
committee, I am honored to appear before you today as President 
George W. Bush's nominee to be the Assistant Secretary of 
Energy for Congressional and Intergovernmental Affairs. I'd 
like to thank the President for nominating me, and the 
committee for holding this hearing.
    I've already introduced my family, but I would like to 
thank them for their tremendous love and support which I have 
depended upon while serving at the Department. As Senator Crapo 
mentioned, there's one member of my family who is not present 
today, and that's my mother, Nancy Sigal. She passed away last 
week. My mother taught me many things--excuse me, Mr. 
Chairman--including compassion, inner strength, and to never 
give up in the face of adversity. She embodied these qualities 
throughout her life, and I will strive to maintain her high 
level of integrity and compassion in my life's endeavors.
    I'd like to give a special thanks and appreciation to 
Secretary Samuel Bodman for his support and his confidence in 
me. It is a tremendous privilege for me to work on a daily 
basis with someone of Secretary Bodman's character, integrity 
and intellect, and I thank him and Deputy Secretary Sell for 
being here today.
    In my work and in my life, I am guided by several 
principles. Among them are honesty, integrity and loyalty. If I 
am confirmed, these are the principles by which the Office of 
Congressional and Intergovernmental Affairs will be guided. If 
confirmed, I commit to you to always provide information in a 
frank and timely manner, to always be responsive to Members of 
Congress and their staff, and to always be willing to meet with 
this committee, other Members of Congress and congressional 
staff.
    During my tenure at the Department of Energy, and in my 
previous experience in the private sector, I have worked with 
members of this committee, as well as other members of the 
House and Senate, on a wide array of energy and environmental 
issues. Should I be confirmed, I look forward to continuing the 
working relationship with this committee, and Congress. If I am 
confirmed, I will draw upon the experiences both in my 20 year 
career, as well as in life, to do my very best to meet your 
highest expectations. It is indeed an honor and a privilege to 
testify before you today. I am happy to answer any questions 
that you may have.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much.
    [The prepared statement of Ms. Sigal follows:]

     Prepared Statement of Jill Lea Sigal, Nominee to be Assistant 
 Secretary, Congressional and Intergovernmental Affairs, Department of 
                                 Energy

    Mr. Chairman, Senator Bingaman, and members of the Committee, I am 
honored to appear before you today as President George W. Bush's 
nominee to serve as the Assistant Secretary of Energy for Congressional 
and Intergovernmental Affairs. I would like to thank the President for 
nominating me and the Committee for considering my nomination.
    I am here today with several members of my family--my husband Bob 
Muth, our wonderful four-year old son Harrison, my sister Pam and my 
brother-in-law Paul Kraszewski. I would like to thank them for their 
tremendous love and support which I have depended upon while serving at 
the Department of Energy.
    There is one member of my family who is not here today--my mother, 
Nancy Sigal. She passed away last week. My mother taught me many things 
including compassion, inner strength and to never give up in the face 
of adversity. She embodied these qualities throughout her life. I will 
strive to maintain her high level of integrity and compassion in my 
life's endeavors.
    I would like to express my deep appreciation to Secretary Samuel 
Bodman for his support and his confidence in me. I have worked closely 
with the Secretary since mid-December through his nomination process 
and for the last five months at the Department. It is a tremendous 
privilege for me to work on a daily basis with someone of Secretary 
Bodman's character, integrity and intellect.
    I have had the privilege of serving in the Department of Energy's 
Office of Congressional and Intergovernmental Affairs since July 2003. 
I started in the office as the Deputy Assistant Secretary for 
Environment and Science, then became the Principal Deputy Assistant 
Secretary and I was named Acting Assistant Secretary in January of this 
year.
    In my work, and in my life, I am guided by several principles. 
Among them are: honesty, integrity and loyalty. If I am confirmed, 
these are the principles by which the Office of Congressional and 
Intergovernmental Affairs will be guided.
    If confirmed, I commit to you to----

  <bullet> always provide information in a frank and timely manner;
  <bullet> always be responsive to Members of Congress and their staff; 
        and
  <bullet> always be willing to meet with this Committee, other Members 
        of Congress and Congressional staff.

    During my tenure at the Department of Energy, and in my previous 
experience in the private sector, I have worked with members of this 
Committee, as well as other members in both the Senate and the House, 
on a wide array of energy and environmental issues. Should I be 
confirmed, I look forward to continuing the working relationship with 
this committee and Congress
    In addition to our work with members of Congress and congressional 
committees, the Office of Congressional and Intergovernmental Affairs 
works on a daily basis with Governors, state legislatures, tribal 
governments and other stakeholders. With major facilities in many 
States across the nation, employing thousands of federal and contractor 
employees, it is also critically important that our office maintain 
open communications with these stakeholders.
    If confirmed, I will draw upon my experiences, both in my 20-year 
career, as well as well as in life, to do my very best to meet your 
highest expectations. It is indeed an honor and a privilege to testify 
before you today. This concludes my statement and I would be happy to 
answer any questions you may have. Thank you.

    The Chairman. Thank you very much.
    Now, we're going to proceed. From my standpoint, I want all 
of you to know that I'm on a very short timeframe in terms of 
how much I can spend here, because I have another meeting in 
the House. But if we have to go beyond the time that I can be 
here, Senator Craig will stay a few extra minutes. Is that 
correct?
    So let me just move to Senator Bingaman to see if he has 
any observations or questions.
    Senator Bingaman.
    Senator Bingaman. Mr. Chairman, I have some questions for 
Mr. Rispoli, solely, which I will just submit for the record. I 
think that, rather than getting into some of the details of his 
various responsibilities, which are enormous, I'll just follow 
up with him after he's had a chance to review these questions 
in more detail. But thank you very much. And as I said before, 
I support each of these nominees. I think they're good choices, 
and they're well-qualified for the positions that they will 
hold.
    The Chairman. Thank you very much, Senator Bingaman.
    Senator Bunning.
    Senator Bunning. Thank you, Mr. Chairman. I'll try to be 
short. I will also submit some questions, but I have a couple 
of things that I'd like to ask about the Paducah plant.
    The Workers' Compensation bill was recently put into law--
this is a question for all three--will you all work to ensure a 
smooth transition of the program from DOE to DOL?
    Mr. Hill. Yes I will, Mr. Chairman--I mean, Senator 
Bunning.
    Senator Bunning. That's all right. I like the promotion.
    [Laughter.]
    Mr. Rispoli. Yes, I will, Senator Bunning.
    Ms. Sigal. Yes, sir, if confirmed, I would be happy to do 
so.
    Senator Bunning. The DUF-6 project in Paducah broke ground 
in July of last year. Earlier this year, there were problems 
with DOE not timely approving phases of construction of the 
facility. It is my understanding that DOE must sign off on the 
final design plan called Critical Decision 3 in about a month. 
Will DOE timely evaluate and approve critical phases of this 
construction?
    Mr. Rispoli. Senator Bunning, I am familiar with the issues 
with that particular project. I can tell you that the 
Department has been working with the contractor and with the 
site manager to resolve those issues so that we can, in fact, 
approve that Critical Decision in a timely fashion to go 
forward with the work.
    Senator Bunning. Can you give me a timeline of any sort?
    Mr. Rispoli. Senator, at this point, I do not know. But if 
I'm confirmed, I will explore that schedule in more detail. As 
I indicate, however, I am familiar with the issue. I know that 
the Department is working the issue with the site and with the 
contractor.
    Senator Bunning. In December--this is for anyone--in 
December 2002, Congress required the DOE to convert its 
industrial and construction workers' health and safety orders 
into enforceable regulations by December 2003, and begin 
enforcing these by December 2004. Since this was my legislation 
that became law, as of July 2005, DOE has yet to finalize these 
rules, and is currently working on a third draft. Previously 
drafts of rules did not follow Congressional intent.
    When do you expect DOE to begin implementing a workers' 
safety rule that follows Congressional intent?
    Mr. Hill. As I understand it, Senator Bunning, the 
Department is working on that rule right now, and considering 
comments and working on a final rule. And we'll have that 
approved as soon as possible, although I don't know a 
particular timeframe for that.
    Senator Bunning. Well, my biggest problem is it's been over 
3 years. And I know there's been changes in the Department, but 
3 years is long enough to get a rule done. And I would think 
the sooner the better, because it's holding up the process of 
those claims.
    Last, the Paducah diffusion plant remediation contract 
continues to be delayed by protests over DOE's handling of the 
procurement procedures. As a result, the current contract had 
to be extended until January 2006, leaving the community in a 
state of uncertainty. Will you work to ensure DOE moves forward 
in a diligent and thorough manner in its decision on the 
remediation contract?
    Mr. Rispoli. Senator, it is my understanding that that re-
procurement, as a result of the issues that arose from the 
first procurement, is being accomplished right now, that the 
proposals will be due in, and that the Department will be 
evaluating those proposals. I also understand that the existing 
contract has been extended to provide the continuity that you 
are concerned about. And if I am confirmed, I will certainly 
look into that, because as you know, the timing for resolution 
is between now and the end of the year.
    Senator Bunning. We don't want Bechtel Jacobs to continue 
to be extended when their contract has expired and been 
extended. We want the local contractors, the small 
contractors--those are your rules, not mine--to have the 
changes made. And I'm looking forward to talking with you, in 
case we have a problem.
    Mr. Rispoli. Yes, I understand the issue, and I do look 
forward to working with you going forward, if I'm confirmed. 
Thank you.
    Senator Bunning. Thank you very much. Thank you, Mr. 
Chairman.
    The Chairman. Senator Bunning, might I just, on your 
behalf, with your permission, say I think it's important on the 
questions that the Senator asked that when you're confirmed and 
take the job that you try to get him and the committee some 
answers as soon as possible. Show that whether you can meet 
what he's talking about in terms of the expectations. I think 
that we should get the problem on the table in writing by 
giving the Senator some information. That's really a sore spot 
for him on both of those issues, and I think some of us share 
his concern.
    Senators Thomas, Burr, Craig, White and Salazar, in that 
order.
    Senator Thomas. Thank you, Mr. Chairman.
    Mr. Hill, one of the difficulties, time-wise at least, it 
seems is an overabundance of legislation litigation with regard 
to moving forward. Do you have any thoughts about that? What 
could be done to efficiently move along with that?
    Mr. Hill. You're referring to the contractual matters, or 
permitting matters, or both?
    Senator Thomas. Permitting matters, primarily.
    Mr. Hill. Yes, I understand, Senator. Oftentimes, 
permitting of both energy projects as well as departmental 
projects can be quite time-consuming and complicated. I think 
in terms of trying to expedite those in a way that does protect 
the taxpayers, protect the environment is a difficult thing. I 
think it does benefit from working on the front end as much as 
possible with affected interests, to try to identify those 
interests and try to work with them on the front end, rather 
than just proceed without understanding what all of the 
interests are, and then litigating once a decision has already 
been made. So we certainly are going to, within the General 
Counsel's office, do everything we can and work as hard as we 
can to make sure that the interests are understood and the 
problems are identified as early as possible.
    Senator Thomas. I hope so. It seems like litigation, 
regardless of the merits legally, is sort of the land 
management technique that's getting overbalanced a bit.
    With regard to the environmental questions, I met yesterday 
with the uranium folks, and obviously nuclear power and 
electricity is one of our potentials for service. What can we 
do to move along with the waste storage in Nevada? How long are 
we going to go along on that before we move forward and get 
that thing completed?
    Mr. Hill. Senator, as you know, the Department and the 
administration are fully committed to the completion of the 
development of the repository at Nevada, at Yucca Mountain. As 
you also know, many of the plans for the disposition of waste 
at the sites throughout the Department are dependent upon the 
development of a geologic repository. I can tell you that that 
commitment remains strong.
    Senator Thomas. Why is it taking so long?
    Mr. Rispoli. Senator, I am unfortunately not in a position 
to answer that. I have not been involved with that program, but 
I do know that there's a strong interrelationship between the 
job for which I've been nominated, which is environmental 
management, and where those wastes go. So I would commit to you 
that if I'm confirmed, I'll work with the people in that 
program to ensure that all of those interrelationships are 
understood and progress forward.
    Senator Thomas. Good. Well, congratulations. I hope you 
succeed, because you know, the issues are really resolved, and 
we need to just move forward. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Burr.

        STATEMENT OF HON. RICHARD M. BURR, U.S. SENATOR 
                      FROM NORTH CAROLINA

    Senator Burr. Thank you, Mr. Chairman. I have no questions, 
I just want to make two general comments. One, it's refreshing 
to see a group of nominees with the qualifications that these 
three have. It is refreshing to see a Secretary who takes 
enough interest to come up and see his team as they go through 
the confirmation process.
    Mr. Chairman, if there's one criticism that I have and that 
I constantly hear of the Department of Energy--and this is not 
reflective of the individuals that are here, necessarily, or of 
the Secretary, but it's very much a broad-based criticism of 
the Agency--it's the speed with which the Agency acts. And I've 
listened to the questions of Senator Bunning and Senator 
Thomas, and both of them dealt with either lack of 
responsiveness or the timeline of responsiveness. And I would 
only say to these nominees--and it's good that I'm within 
shouting distance of the Secretary at the same time--we don't 
expect everything to always be right, but we do expect the 
Agency to act. And I think the frustration that I bring from 
the House side, now to the Senate side, and that I hear 
expressed on the Senate side, is of an Agency that doesn't act. 
And I would only encourage the three nominees and the 
Department of Energy--let's act. Let's be an Agency that gets 
things done. We can all look back and figure out if we need to 
tweak it because we didn't do everything exactly right, but 
there's no substitute for action, and I would encourage you to 
come into these jobs with the intent of action.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    Senator Craig.
    Senator Craig. Thank you, Mr. Chairman.
    Jim, David and Jill, welcome to the committee and 
congratulations to the three of you, and I mean that most 
sincerely. I've had the privilege of getting to know some of 
you a bit, and of course, I've worked with Jill a good many 
years in a variety of capacities. And, Jill, you're certainly 
well-qualified for the position the President has nominated you 
to.
    Ms. Sigal. Thank you, Senator.
    Senator Craig. This morning on NBC news, the ``Pump 
Patrol'' was letting our country know where they could buy gas 
the cheapest. On the average, regular unleaded is $2.33 a 
gallon as of this morning, crude is falling in the world 
market, slightly, today. But there is a general perception out 
there that something's wrong. These costs are going ever 
higher, and the American public grows restless.
    We all know that the Department of Energy is not in the 
business of producing oil, or energy for that matter, but 
perceptually, you have become the bull's eye of a very 
important target in the minds, I think, of the American people.
    This Senate acted responsibly in the production of a 
National Energy Policy a few weeks ago. The reason the chairman 
is rushing off is to sit down with the chairman in the House to 
begin a conference that we hope will produce a policy that will 
get it to the President's desk sooner rather than later. We've 
been waiting a long time for this. We've sorted out our 
differences, but we think we've got something that's workable. 
And from that, a great deal of it will be turned over to your 
Department for a variety of reasons, but largely because a 
certain amount of it will be under your jurisdiction. And we 
would hope--and I think Senator Burr said it well--that you 
would act expeditiously in a variety of areas to move 
initiatives forward, to think out of the box, to suggest to OMB 
that they're 10 years behind the times, they've got to think 
differently, to do a lot of things inside the institution of 
government that, at best, moves slowly, and sometimes poorly.
    Now, the reason I'm on this committee--and it isn't by 
accident that the Senator, who's my colleague from Idaho, 
introduced Jill Sigal this morning, and is very much 
interested--is the same reason Senator Bunning's on the 
committee or Senator Bingaman, or Senator Domenici. We have 
national energy laboratories within our States that we have, 
over the years, protected, pushed, judged, but believe them to 
be incredibly valuable national assets, from which a great deal 
of the policy we're talking about can be implemented, or should 
be implemented, at least as relates to the research side and 
the development side, not necessarily the market side.
    Jim, one of the decisions that Senator Crapo and I made 
several years ago in working with DOE was to divide the 
contracts at our national lab for a future. You happen to be 
involved in an area of our national lab and that is terminal, 
we hope. Successfully terminal--by that, I mean, it's cleanup, 
to be done efficiently, responsibly and as quickly as possible. 
You're watched very closely. The State and a lot of interests 
watch you. And I hope that your commitment, as Assistant 
Secretary for Environmental Management, is the same as the past 
Assistant Secretary, and that is the cleanup will move on on a 
timely schedule, and that as the cleanup goes, the agreement of 
this administration to that laboratory is, as those resources 
ramp down, those resources move across, to sustain and to move 
up the area of the laboratory's nuclear science and engineering 
missions. Do you hold the same commitment?
    Mr. Rispoli. Senator, I do, yes. As you know, if I am 
confirmed, as we discussed, I am fully committed to the 
efficient and effective cleanup. And obviously, as we progress 
with that, and the needs of the cleanup become less and less 
over time, what you are speaking of is certainly attainable. I 
would certainly cooperate with my colleagues at the Department 
going forward in that process, if confirmed.
    Senator Burr. David, one of the things that I think DOE has 
to become involved in that we tend not to is budget. It is a 
consequence of where we need to get with energy and research 
and development versus the budget realities we face here. There 
are a great many energy interests all over the world who want 
to be partners and participants in the work that goes on in our 
national labs. We've looked, in the past, at certain kinds of 
legal relationships called CREDA's. I think we need to think 
way out of the box once again, of how we bring national and 
world partners--not governments--some might be--to work 
cooperatively and collectively with us in certain projects and 
missions that serve, not only the national interest, but the 
world interest as it relates to energy production. Have you 
given that any thought, and are there examples that you might 
bring to us over time as to how we might get there? And I'm 
talking, specifically of, in this new policy that we're working 
on a final conference report on, Generation 4 nuclear. There 
are a host of countries and a host of multinational companies 
that want to be players, with billions of dollars worth of 
investment money into a government program. How do we do that? 
To sustain the national interest and the national security, but 
have a world-class research and development center?
    Mr. Hill. What you say, Senator, is certainly true. The 
technologies that are being developed in the laboratories, 
there's nothing specific to the United States, or the United 
States' interests, about a lot of those technologies and 
developments. Gen-4 is an example. The clean coal work that's 
being done, a lot of the nanotechnology work that's being done 
at the laboratories, a lot of the work at the national labs can 
benefit the entire world, not just the United States.
    I certainly think that we should work as hard as we can to 
explore what the opportunities are to make use of international 
involvement and interest in pushing those forward. Certainly 
with the Carbon Sequestration Leadership Forum, for example, 
we're working with a number of other countries that are 
interested in the ideas behind carbon sequestration, and the 
regional partnerships that are working as a part of that are 
working on strides with respect to carbon sequestration with a 
number of countries around the world, and I'll certainly commit 
to doing what I can to work on that and to work with your staff 
on those issues.
    Senator Craig. Well, I thank you for that. I really believe 
that the needs are so demanding and the resources so limited 
that we've got to get beyond the normal configuration of how we 
approach these things. There seems to be a good deal of 
resources, both governmental and private, out there in the 
world that would be a player and a participant.
    Mr. Hill. Yes, sir.
    Senator Craig. Jill, in your capacity--governmental 
relations, congressional relations, is a key of importance to 
us--you're, without question, a bit of a touchstone for us to 
the Department and to our laboratories. At the same time, I 
think it's important for you to understand that sometimes we 
develop close working relationships with our laboratories and 
the people within our laboratories, and it is an interesting 
relationship, because our laboratories are managed--responsibly 
and rightfully so--by the executive branch of government, that 
which you are a part of. What I'm suggesting to you, and I 
think you clearly understand this, is that as you work on our 
behalf, whether it's legislative issues or being the 
connectivity or the conduit to our laboratories, that we do 
have those relationships. And it's a bit of a--I don't want to 
call it convoluted, I think it is a relationship that works 
well. There's no question the New Mexican Senators are 
advocates of their laboratories, Mike Crapo and I are advocates 
of our laboratory, here is an advocate of a critical laboratory 
here, on and on and on. They are valuable employers, they are 
valuable community members, and we develop those kinds of 
working relationships, and I would hope that in your capacity, 
you work to keep those doors open and those lines of 
communications always at hand.
    Ms. Sigal. Yes, Senator, I clearly understand the 
importance of the INL to you, and the various labs in New 
Mexico to the chairman, and Paducah to Senator Bunning, and 
Hanford to Senator Wyden, and NREL and the other labs and DOE 
facilities to most of the Senators on this committee. And I do 
think it is very important to have open lines of communication, 
not only between DOE headquarters and the Congress, but also 
between the field offices and the Congress, and if confirmed, I 
would be delighted to facilitate that in any way possible.
    Senator Craig. Great. Thank you. Congratulations to all of 
you.
    Ms. Sigal. Thank you, sir.
    The Chairman. Thank you, Senator. Senator Wyden is going to 
go next, but I'm going to step in now and take 2 minutes, and 
then yield to you.
    I'm just going to ask three questions. First, Ms. Sigal, 
over the past several years there's been a very significant 
amount of staff turnover within the Congressional Affairs 
Office of the Department. I think you know that. Consequently, 
long-term working relationships with the staff and members have 
been difficult for the Department to establish. I would hope 
that you have a vision of an Intergovernmental Affairs Office 
for being a consistent, a long-term relationship so that 
everybody understands precisely what your role is and that you 
assume a more significant role in the exchange between the 
members of the Senate and the committee and the Department. 
Could you just comment on that? I don't expect you to know all 
of the ins and outs, but what I've just said is a reality.
    Ms. Sigal. Yes, sir. If confirmed, it would definitely be 
my objective to play an important role in the Office of 
Congressional Affairs, and to lead the office, and to have open 
lines of communications with this committee and Members of 
Congress, because our purpose for existing is to--as Senator 
Craig stated--to be the conduit between the Department, between 
the Secretary and the Deputy Secretary and Congress. And if I 
am confirmed, that would be my highest priority.
    The Chairman. I have two other things that are kind of 
bothering me. And I don't know, but if I had the Secretary 
there, the ones I'm going to ask you about, Mr. Hill, two of 
them would be more appropriate for him. The Unical v. China 
situation is very bothersome. One thing that I noted is that 
there is a committee that's been formed to work on this issue, 
and I looked down the list and it has a number of prominent 
individuals in prominent positions, like the Secretary of the 
Treasury, the Office of Science and Technology, but I note the 
absence of the Secretary of Energy. I don't know what that 
means. I was going to ask you if you had any thoughts about how 
we might rectify that, but that's more appropriate to be asked 
of the Secretary in private. I may be wrong in my assessment--
--
    Mr. Hill. Mr. Chairman, are you referring to the committee 
on Foreign Investment in the United States?
    The Chairman. Yes.
    Mr. Hill. I understand that the Secretary of Energy is not 
an official member of that, although I would anticipate the 
Department of Energy would be, and the Secretary would be 
involved in the processes of any work by the committee in 
connection with the proposed transaction.
    The Chairman. Well, Mr. Hill, the office that you have is 
not so defined that it is limiting on you, it's defined in such 
a way that you ought to use your talents to the maximum extent 
possible. We have had people in your position--it's not 
difficult for this Senator to say--that have been less than 
adroit at what the office ought to do. And in that regard, I 
would hope that you would become totally familiar with the 
issues involved, energy-wise, in terms of such a situation as 
I've described. Am I fair and safe in assuming that that's your 
vision of the office?
    Mr. Hill. Mr. Chairman, I would certainly anticipate being 
involved with the Secretary and the other principal officers of 
the Department in all manner of important decisions. Prior to 
coming to the Department in March 2002, in my current position, 
I had been in private practice for a number of years, and had 
worked in connection, particularly with electricity and natural 
gas matters, so I came to the Department with a fair amount of 
knowledge in connection with energy matters. So I would look 
forward to working both with the committee and of course 
closely with my administration colleagues and would hope to 
improve the office's performance in these areas.
    The Chairman. Thank you very much. Now, my last one, I'm 
going to kind of put two together and both of you--Mr. Rispoli, 
let me say that the job you have undertaken is so difficult 
that I've frequently asked, each time that we have had an 
excited nominee to take the job, I ask ``why?'' But I'm not 
going to ask you that, because I think you've already explained 
it. But let me tell you, I think in the last 4 years, there has 
been more success in many, many years, and I would hope that 
you would look back on how the success has occurred. Rocky 
Flats is a great success. It might be that it's unique, but I 
firmly believe that in this cleanup matter, we are just wasting 
time and money. And I don't mean the problem isn't big, but 
sooner or later, we have to understand why, instead of just 
continuing to write checks. We have become a check-writing mill 
for these communities. We are the big-time employer, and I 
understand. So the lobbying is almost equivalent to having an 
air base there, a permanent laboratory. But that's not the 
case, and that's not what it should be. And I would hope that 
you would expand the horizon, continue down the path of getting 
the job done, but also address basic issues of are we just 
being--just continuing down the path of doing what we've been 
doing to no end. That's just my own thought and observation, 
and I would just ask you if you would give me your own quick 
thought on that subject.
    Mr. Rispoli. Yes, Mr. Chairman, thank you. The Department 
very recently--as you know, and as you've stated--did in fact, 
restructure the entire Environmental Management Program. I 
believe that the program is organized in a much better way that 
gives greater visibility to the individual components. I fully 
support going forward with that incentivized method of getting 
these sites cleaned up properly, effectively and safely. So, 
yes, Mr. Chairman, I give you my commitment. If confirmed, I 
will go forward from this point.
    The Chairman. Mr. Hill, there's one giant matter that's 
pending over there in that Department that you're going to be 
involved in and that's the--what we're going to do about the 
bid with reference to Los Alamos National Laboratory's new 
management contract. Now, you're aware that that's pending, are 
you not?
    Mr. Hill. Yes, Mr. Chairman, I am.
    The Chairman. Are you aware that that's a very major issue 
for the United States of America, to get that thing resolved?
    Mr. Hill. Yes, sir, I do.
    The Chairman. And I want to say to you and ask you, in your 
capacity as legal counsel, will you see to it that that 
proceeds as expeditiously as possible? I'm not asking that we 
interject ourselves in that process, but delay is not in the 
interest of the thousands of scientists who are there, and it's 
not in the interest in maintaining what has heretofore been one 
of the greatest scientific laboratories in the world. And I 
would ask if you have any observations along those lines, and 
do you concur, and would you commit to us that as far as your 
role is concerned, you do not have in mind anything but getting 
this job done as soon as possible?
    Mr. Hill. Mr. Chairman, I can commit to you that I will do 
everything I can to see that the process moves as expeditiously 
as possible. Yes, sir.
    The Chairman. And frankly, I just want to close this by 
saying that there will be a lot of excuses that people give for 
studying this, studying that, look at this, but you know, this 
thing has been going on a long time. No blame on the Secretary, 
but the longer we delay, the worse the morale and more 
difficult it is to get the great scientists to stay, and to get 
the great young talent to come there. And this is of great 
concern in the labs in my State. But I tell you, if it was not, 
and I were looking at it, I'd be very worried, and I would 
hope--I know the Secretary is, but you have a big 
responsibility there.
    Mr. Hill. Thank you, Mr. Chairman. I understand, from both 
your comments and the comments of other members of the 
committee, and we certainly understand at the Department, as 
well, the importance of resolving uncertainty, making a 
decision. And I can say I know the Secretary has expressed that 
many times, internally, so we certainly understand the 
importance of making a decision.
    The Chairman. I'm going to yield the panel to the 
distinguished Senator Craig. And I wonder if, Secretary, you 
could meet me for a few moments as I leave, and then you can 
return. I'd just like to ask you a couple of questions that are 
not appropriate in public. Thank you, Senator Craig.
    Senator Craig [presiding]. Senator Wyden.
    Senator Wyden. Senator Craig, Senator Salazar has to leave. 
I have a number of questions, but I'd like to yield to him.
    Senator Craig. Great.
    Senator Salazar.
    Senator Salazar. Thank you, Senator Craig.
    Let me just, first of all, say congratulations to all of 
you. Jill, I know that your mother's legacy lives on with you, 
and we very much sympathize. You have our condolences.
    Ms. Sigal. Thank you, Senator.
    Senator Salazar. I have a number of questions that I'm 
going to submit for the record, and I look forward to your 
responses. Let me just say three things here, very quickly.
    One is, for me, it's important that all three of you work 
with this Senate in bipartisan fashion. You saw this committee 
pull out a bill in a bipartisan fashion that was accepted by 
the Senate on an 85 to 12 vote. That's the kind of spirit that 
we need to see in Washington, DC. and I look at you working 
with a Republican administration, and I'm a Democrat, but I 
want to work with you in a way that we're working for the 
benefit of our Nation, and the bipartisanship is very 
secondary. So I want to have a parity of equality and a parity 
of treatment for both Democrats and Republicans in our working 
relationship on whatever those issues might be, whether it's 
laboratories or the energy issues. We won't always agree, but I 
want to have that kind of relationship of equality.
    Second, Rocky Flats is truly a model for what we can do 
when we think out of the box in terms of the cleanup challenges 
that face the Department of Energy. I want to work with all 
three of you as we move forward in the completion of that 
cleanup. I also want us to fight to resolve these natural 
resource damage claims, because that's a big issue that's out 
there. And I don't want us to get into the same kind of legal 
conflict that we're in with Shell, which has taken 20 years of 
litigation and multi-millions of dollars to try to resolve it. 
I'm working closely with Senator Allard to try to see whether 
we can get that done. And, David, we're going to need your help 
to try to get that wrapped up in a package so we can get that 
done.
    Finally, on long-term stewardship issues and institutional 
controls, we have legislation that we've passed in Colorado 
that allows for those long-term stewardship, institutional 
control issues to take place at Rocky Flats. I want you to work 
with us to explore how we might be able to take that concept 
and explore it here and perhaps in other places as well.
    And finally, to say congratulations to all of you, and I 
very much look forward to working with you as well as Secretary 
Bodman.
    Ms. Sigal. Thank you, Senator.
    Mr. Hill. Thank you, Senator.
    Mr. Rispoli. Thank you.
    Senator Craig. Thank you, Senator Salazar.
    Senator Salazar. Thank you.
    Senator Craig. Well, now that we've given you Ron's time, 
that means Ron has less time.
    Senator Wyden.
    Senator Wyden. The story of my life. Chairman Craig, I was 
really struck with your comment to begin with about the 
shellacking that our citizens are taking at the gas pump, and 
you're absolutely right, there really isn't an explanation for 
this. The Federal Trade Commission put out yet another report 
that looks to me like a whitewash of all of the major issues. 
Certainly, the Congress and the administration ought to want to 
know why gasoline prices at the pump are going up much faster 
than crude oil prices. This has been an issue that the 
administration has been unwilling to take on. Certainly the 
country ought to have an answer to why refinery margins and 
refinery profits are going up so dramatically, and the 
administration has been unwilling to look at that issue. So I 
guess I'm an army of one at this point. My colleague is telling 
me to move on, but I just want the administration to know that 
I intend to pursue these issues very vigorously, and I think 
the administration's persistent ducking of those issues in 
particular, including a report the Federal Trade Commission put 
out last week that also didn't respond to even what the General 
Accounting Office said with respect to oil company mergers 
being not in the public interest--the American people deserve 
better. The fact of the matter is, when people pull up at a gas 
pump today, because of our dependence on foreign oil, in 
effect, our citizens pay a terror tax. They go up to those 
pumps at those stations, pay $2.40 a gallon, or thereabouts, 
and then a big chunk of that money is handed over to foreign 
governments. Foreign governments back-door it to these 
terrorist groups that perpetuate hate and terrorism. I just 
hope the administration will get into those issues.
    Let me begin with you, Mr. Rispoli, on the question of 
cleanup. My sense is that the country has moved backward in 
terms of cleanup just over the last few months. And I would 
cite, on Secretary Bodman's watch, my concern about the 
cutbacks to the budget for cleanup. I'm concerned about the 
questionable contract management practices. I'm concerned that 
the Department is not listening to what defense experts are 
saying with regard to the cleanup of these facilities, 
particularly the Defense Nuclear Facilities Safety Board. And 
what's going on at Hanford, out in our part of the world, is 
pretty much a case study of how I see what's going on at the 
Department. So let me, if I might, begin with some questions 
involving the problems at the Hanford Vitrification Facility, 
which will be one of your big concerns.
    Now, in your current capacity, as Director of the Energy 
Department's Office of Engineering and Construction Management, 
your office has the responsibility for the management of large 
capital projects including the Hanford Vitrification Plant. 
Given your office's oversight role over that plant, shouldn't 
the seismic and other problems that the Secretary has indicated 
are of concern be addressed through better contract management, 
and to some extent have been anticipated by your office?
    Mr. Rispoli. Senator, let me begin on your question by 
noting that the Secretary is personally extremely concerned 
about the ongoing situation with the Hanford Vitrification 
Plant, and has been very much engaged in a path to go forward 
with this project. As you know, it's a very essential 
ingredient of several facets of work at the Hanford site. What 
I can tell you is that the Secretary has directed that there be 
an after-action review to determine how we've gotten to this 
point, and that we are going to focus on the seismic issues to 
which you've referred. I might mention that we've been in 
dialog with the Corps of Engineers since March. They have 
already been to the site and they have agreed to do a review 
for the Government of all of the seismic issues going forward. 
Because obviously we want to get it right, we want to build a 
plant that is built right and safe for the people in the 
community. So I can give you my assurance that the 
Environmental Management Group is taking another look at the 
path forward, under the Secretary's direction, to resolve these 
issues and be sure that the path forward is correct.
    Senator Wyden. I knew that you had been talking with the 
Army Corps, but my understanding is that the Defense Nuclear 
Facility Safety Board, which directly oversees the safety 
issues at Hanford, raised concerns about the seismic activity 
at the site of the vitrification plant, and as far as I can 
tell, those concerns were not taken into consideration in the 
site selection or the design of the plant. Why was that the 
case?
    Mr. Rispoli. Senator, to answer your question, it is my 
understanding that back in the late 1990's, the seismic 
criteria that were given to the contractor to use were, in 
fact, used and endorsed by both the Army Corps of Engineers and 
the Los Alamos National Laboratory. At that time, they were 
believed to be correct and current seismic criteria. As you 
point out, the Defense Nuclear Facility Safety Board expressed 
further concerns. As a result of that, the Department more 
recently did further seismic investigation and found that, in 
fact, the conditions at the site were not what had been 
presumed in the prior studies. So you are correct that the 
Defense Board did raise their concerns. The Department did 
consider those concerns, and is going forward with the re-
design to accommodate those concerns.
    What I mentioned to you about the Army Corps today is that 
we're now going to turn to them again to ensure that we don't 
have a repeat of the types of problems that you raised, that 
happened between the late 1990's and today.
    Senator Wyden. Now, why was construction of the 
vitrification plant put in motion even before it was fully 
designed? That just strikes me as bizarre, even by Beltway 
standards. It seems to me to be an unusual method of building 
facilities. What's your take on that?
    Mr. Rispoli. Well, Senator, as you know, this contract was 
awarded late in the year 2000. It was awarded in an effort to 
keep forward momentum. You may recall that there were literally 
thousands of workers on the site when the last contract was 
terminated, and the prior administration made the decision to 
keep that forward momentum going. The contract was 
restructured, but as you point out correctly, it was 
restructured as what is commonly called a ``design/build/
operate'' contract. The advantage to that type of a contract is 
that the same entity that designs it does the technical work, 
then constructs it and then operates it so that the Government 
has one entity to turn to for accountability throughout the 
life of the project. I have seen no reason to question the 
decision to use design/build. However, there have been problems 
in that the contractor was doing the construction before the 
design was finished in many cases, and I believe you know those 
stories as well. It is my understanding that the site office 
has corrected those problems going forward, and now we are 
focusing on getting the seismic issues straight, as you 
mentioned earlier.
    Senator Wyden. I want to see if I can put this into 
something resembling English. I think it's got to be designed 
first, before it's built. What you all have shown with respect 
to the vitrification facility is that you're willing to build 
it first, and then design it. Are you telling me now that you 
have made at least a constructive step to get back on track, 
you're not going to allow this approach--build it first, then 
design it--to happen again on your watch?
    Mr. Rispoli. Senator, if I understand your question 
correctly----
    Senator Wyden. The question is very straightforward.
    Mr. Rispoli. Yes, sir.
    Senator Wyden. What you're doing now is building it before 
you design it. I want to make sure that that's not going to 
happen again on your watch. Very straightforward question.
    Mr. Rispoli. Yes, sir. And the answer to that is that that 
is not going to happen, if I'm confirmed. The path forward is 
that the design on each component will be complete before 
construction is undertaken on that component. Part of the 
Secretary's path forward is to concentrate and focus on the 
correct seismic design to ensure we have that right, and that 
we will construct the components of that plant as design is 
finished, and there's enough time to do a review of that design 
and be sure that it's done correctly.
    Senator Wyden. Now, the largest and most complicated and 
most expensive problem in DOE complex is, of course, at 
Hanford, and the 53 million gallons of high-level radioactive 
waste stored in almost 180 aging underground tanks. Now, 
construction of the treatment facility has been underway for 
the past several years, but the project is still slowed while 
the implications, again, of some of these issues that we have 
been talking about are considered. The State of Oregon wants to 
know what commitment can you give now, in terms of date 
specific, to get the project back on track?
    Mr. Rispoli. Senator, the Department is committed to 
maintaining its commitment to have the waste treated by the 
2035 date. The Department is committed to complying with its 
regulatory agreements everywhere that we do business. Obviously 
these technical issues that we're dealing with today are under 
consideration, and I'm not--nor is the Department--in a 
position to answer your question on the various interim 
milestones until we complete this technical review, but we are 
committed to complying with the provisions of the Tri-Party 
Agreement. We know what dates are required for the completion 
of the work and the treatment of the waste, and we're committed 
to meeting those dates.
    Senator Wyden. So the bottom line here is, you're doing 
this new review of the problems at the vitrification facility, 
a number of which occurred on your watch, and when the new 
review is done, then you're going to announce some timetables 
for various stages of the plan?
    Mr. Rispoli. Yes, Senator. There is a path going forward 
that includes both the review to see how we got to the point 
we're at, but also some very specific steps going forward. 
Again, we intend--we talked to the Corps of Engineers back in 
March about doing an independent cost estimate for us, to 
verify the cost and schedule, because what we don't want are 
more surprises going forward. We want to make sure that we're 
doing it right going forward.
    Senator Wyden. One other question on this for you, Mr. 
Rispoli, a related question. The Energy & Water Appropriations 
bill provides funding to look at shipping commercial nuclear 
waste to Hanford. The Senate bill does not allow Hanford to be 
considered a storage site for waste. The legislation is now in 
conference. I'd be interested in knowing your view whether 
allowing more nuclear waste to be sent to Hanford would 
undercut efforts to clean up the waste and contamination that's 
already there.
    Mr. Rispoli. Senator, I understand your question, but 
unfortunately I have not been in a position to work with that 
issue. If I am confirmed, obviously I need to understand that 
issue, and will work with you and your staff, if confirmed, to 
understand it and resolve it.
    Senator Wyden. Well, I'll give you the basics. The 
President's budget cut funding for the Department's cleanup, 
the largest cut targeted for Hanford. In our part of the world, 
we do not see how Hanford can handle more waste with less 
money, when we have the problems, a number of which occurred on 
your watch, with the vitrification facility. So I hope that 
you'll keep that in mind as you go forward with this situation.
    Just one question for you, Ms. Sigal. My condolences to you 
for your loss. You've always been very responsive to us and a 
pleasure to work with, and I know you will be as well.
    Ms. Sigal. Thank you, Senator.
    Senator Wyden. At the Department--just a quick question on 
a matter we talked about at the office that I told you I would 
ask about, and that's my inability to get from the 
administration the information with respect to one million 
barrels of petroleum products that are exported every day in 
this country. Now, the history of this, as we discussed, is Guy 
Caruso, with the Energy Information Administration, pledged 
back on February 3 that I would be able to get this 
information. Now, I think it's fairly obvious why a member of 
the Energy Bill Conference Committee for the Senate would want 
to have this information. We have this huge dependence on 
foreign oil and imported products, and yet I think the American 
people are pretty amazed to hear that one million barrels of 
petroleum products are exported out of the country every single 
year. And we ought to know what kind of products they are, and 
who's doing it, and be able to get that information. And Guy 
Caruso pledged to me back on February 3 that I would have that 
information. I still haven't been able to get it. And I wonder 
if you have any additional information--we talked about it in 
the office--as to when that would be forthcoming, and if not, 
why not?
    Ms. Sigal. As we discussed in your office, we did look into 
that. We talked to Mr. Caruso, who informed us that he misspoke 
when he talked to you, because he thought he had the data, but 
the data was not in EIA, the data was at the Census Bureau. And 
it is our understanding that the Census Bureau will not release 
that information, not even to us. That's what we have been able 
to determine thus far.
    Senator Wyden. The only other question I'd ask is, just 
from a policy standpoint, do you think that information ought 
to be made available to the public?
    Ms. Sigal. I think, as a general rule, when a committee or 
a Member of Congress asks for information that that information 
should be provided. In this specific case, I don't know enough 
about the specific data and whether it's proprietary 
information to make a judgment in this case. But as a general 
rule, I think Congress should be provided the data and the 
information that they request.
    Senator Wyden. The companies, I think we both know, are 
going to consider it proprietary, there's no question about it. 
But I think if we're serious about a policy that shakes us free 
of this addiction on foreign oil--there's no other way to 
characterize it--we've got to have that kind of information, 
and I'm going to continue to follow up with you on it. I think 
you're going to do an outstanding job, and I congratulate you 
and both of your colleagues.
    Mr. Rispoli, I think you get the drift that I have strong 
views on this issue of cleanup and I'm not at all satisfied 
with where we are. I'm going to look forward to talking to my 
good friend and Chairman, Senator Craig, about issues like why 
the gasoline prices at the pump are going up so much faster 
than crude oil prices, because I think, Mr. Chairman, you put 
your finger on the fact that there are a lot of aspects of 
what's happening with the consumer at the pump that have 
certainly not been adequately explained at this point, and I 
look forward to working with you on it. If you want to schedule 
some hearings to look at just those issues, as to why prices 
are going up so much, you can count on my desire to be there, 
and as always to work with you. And I thank you for the 
patience in giving me this opportunity to ask these questions. 
I congratulate all of you on your confirmations.
    Ms. Sigal. Thank you.
    Mr. Hill. Thank you.
    Mr. Rispoli. Thank you.
    Senator Craig. Well, I thank you all very much. We will 
move as expeditiously as we can to get you out and confirmed so 
that you can move ahead in your important capacities that 
you've been nominated to fill. Let me also say, with Clay in 
the audience this morning, that we appreciate you working with 
us as we've worked our way through, we think, an important 
piece of policy that now is in conference. I'll continue to 
work closely with the Department, as we have on other nuclear 
issues, so that we have a complete package in this Conference 
Report that gets to the President's desk. I think that will be 
tremendously important for the future of that industry and 
technology.
    With that, let me say that normally I would ask that 
additional questions be filed with the committee's staff by 
close of business today. However, given that we have three 
nominees, coupled with the fact that we've just returned from 
recess, I will extend that time to 5 p.m. tomorrow, Wednesday, 
July 13, for any other members of the committee who would wish 
to send written questions forth to the nominees.
    With that, the committee will stand adjourned.
    [Whereupon, at 11:20 a.m., the hearing was adjourned.]

                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

      Responses of David R. Hill to Questions From Senator Salazar

    Question 1. Institutional Control Laws. The Department will soon 
complete the environmental cleanup of its Rocky Flats plant west of 
Denver. In general, the cleanup has progressed well. But, as at many 
contaminated sites being cleaned up across the country, some 
contamination will remain in the ground. A part of the site will be 
designated a National Wildlife Refuge. It will be necessary, therefore, 
to impose certain restrictions on land use to ensure that the remedy 
remains protective of human health.
    Because existing legal mechanisms to restrict land use are not 
adequate for this purpose, many states have adopted or are adopting 
legislation to create enforceable use restrictions, or ``institutional 
controls.'' In 2001, the Colorado Attorney General's office drafted and 
sponsored such legislation, and, with the support of the Colorado 
Department of Public Health and Environment, the General Assembly 
passed the legislation unanimously. Governor Owens signed it into law.
    Colorado's institutional control legislation enjoyed strong support 
from both industry and the environmental community, because it reduces 
cleanup costs and it makes cleanups safer and more reliable. Colorado's 
legislation served as the model for the Uniform Environmental Covenants 
Act, which is now being considered in a number of states across the 
country.
    Federal agencies were among the most outspoken supporters of the 
legislation, urging EPA and the states to rely on institutional 
controls to reduce cleanup costs. Yet, now that states are moving to 
create enforceable, effective institutional control laws, federal 
agencies, including DOE, have refused to comply with these laws. At 
Rocky Flats, for example, DOE, the State of Colorado, and EPA are in 
general agreement on the use restrictions that should apply to the 
site. But DOE has refused to put those restrictions in an environmental 
covenant, as required under state law. DOE has refused to comply with 
other states' institutional control laws as well. This refusal has 
raised serious questions about the long-term reliability of the cleanup 
now underway at DOE facilities across the country.
    As General Counsel for the Department of Energy, will you assure me 
and the people of Colorado that DOE will fully comply with state 
institutional control laws?
    Answer. The Department and other federal agencies support States 
adopting enforceable institutional control laws. These laws can save 
the taxpayers money and promote transfers of property. The Department 
and other federal agencies are actively working with States to assure 
that we can, to the extent legally permissible, comply with applicable 
state institutional control statutes. With regard to the Colorado 
statute, we have every intention of establishing institutional controls 
on the Rocky Flats site that are legally enforceable, run with the 
land, and are consistent with the requirements of the statute. We are 
coordinating our efforts with other affected federal agencies.
    Question 2. Transition from Environmental Management to Legacy 
Management. The completion of the cleanup and regulatory transition at 
Rocky Flats from the jurisdiction of the Department of Energy's Office 
of Environmental Management to the Office of Legacy Management will 
mark the first such transition in the nation at a major cleanup site. 
Over the course of the cleanup, and especially as we near the 
completion of the cleanup, Environmental Management has made many 
promises and commitments to the State of Colorado and to the local 
communities surrounding Rocky Flats. These commitments include the 
procedures and standards for monitoring programs, the management of 
surface water impoundments, and other long term management activities.
    As General Counsel for the Department of Energy, will you assure me 
and the people of Colorado that Legacy Management will fully honor all 
of the commitments made by the Office of Environmental Management at 
Rocky Flats?
    Answer. DOE and all of its component offices, including the Office 
of Legacy Management, are committed to fully honoring all of the 
Department's commitments at Rocky Flats.
    Question 3a. Role of State Departments of Health. The Colorado 
Department of Public Health and Environment has played a key role in 
the successful cleanup at Rocky Flats. In past years, when prior 
Department of Energy contractors at Rocky Flats created an atmosphere 
of public skepticism or hostility, the Colorado Department of Public 
Health and Environment challenged DOE to do better. As a result, the 
people of Colorado relied on their state department of health to tell 
them the truth and to assure them that the cleanup would be performed 
properly.
    The Colorado Department of Public Health and Environment will 
continue to play a key role at Rocky Flats, with significant regulatory 
responsibilities, in coordination with EPA.
    What is your view of the role of state health agencies in the 
complex cleanups of nuclear sites?
    Answer. The oversight and support of the Colorado Department of 
Public Health and the Environment have been critical in DOE completing 
the cleanup of Rocky Flats ahead of schedule and well under budget. The 
Rocky Flats Cleanup Agreement, signed by DOE, EPA, and the State of 
Colorado put in place a winning combination of close regulatory 
oversight at both the policy and project level and an interagency 
project coordination team that allowed the agencies to constantly focus 
on the ultimate goal of the project and the three agencies--the safe 
cleanup and closure of the site. The expert day to day interaction 
between the interagency project managers can allow DOE and other site 
owners to effectively comply with the myriad of laws and regulations 
governing site cleanup and closure.
    Question 3b. Will you ensure that the Colorado Department of Public 
Health and Environment has full and timely access to all public health 
and environmental data regarding Rocky Flats during and after the 
transition to Legacy Management?
    Answer. Yes. The Department is committed to providing the Colorado 
Department of Public Health and Environment with full and timely access 
to public health and environmental data regarding Rocky Flats both 
during and after the transition.
     Responses of David R. Hill to Questions From Senator Cantwell
    Question 1. As you probably know, the Federal District Court in 
Eastern Washington recently found in favor of some of the plaintiffs in 
the ``Hanford Downwinders'' civil lawsuit. It is my understanding that 
the Federal Government has been paying the legal expenses relating to 
defending the two indemnified DOE contractors in the case, General 
Electric and Dupont.
    Can you provide me with the total cost that the Federal Government 
has incurred in defending the indemnified contractors (General Electric 
and Dupont) in relation to the ongoing civil litigation of the 
``Downwinders'' lawsuit?
    Answer. DOE has reimbursed $49,757,263 from commencement of the 
litigation in 1991 to date in costs associated with this litigation.
    Question 2. I understand that there are another 300 Thyroid Cancer 
cases and 1500 other Thyroid Illness cases to be tried. A settlement 
would bring quick justice to the ``Downwinders'' and could potentially 
save the taxpayers tens of millions of dollars.
    Can you provide your analysis as to why it would not be in the 
interest of basic fairness to the plaintiffs, and in the wise use of 
taxpayer and federal court resources to try and devise a settlement 
strategy in this case?
    Answer. At the direction of the U.S. District Court for the Eastern 
District of Washington, the parties to this litigation selected 12 
``bellwether'' plaintiffs, the disposition of whose claims it was hoped 
would set a template for the disposition of the claims of the other 
plaintiffs. Five of the ``bellwether'' plaintiffs' claims were 
dismissed by the court on the ground that there was insufficient 
evidence to even submit them to a jury, and one ``bellwether'' 
plaintiff voluntarily dismissed her claim. Of the six ``bellwether'' 
plaintiffs whose claims ultimately were tried, the jury rejected three, 
deadlocked (ten-to-two in favor of the defense) on one, and returned 
verdicts for relatively modest amounts in favor of two plaintiffs. Only 
about three dozen of the approximately 1800 plaintiffs whose claims 
have yet to be addressed have claims comparable to the claims of the 
two successful ``bellwether'' plaintiffs.
    Prior to the ``bellwether'' trial, the Department authorized the 
defendants to make two offers to settle this litigation, one for a lump 
sum payment and one modeled on the Energy Employees Occupational 
Illness Compensation Program. Either of those offers, which were not 
accepted by the plaintiffs, would have provided more to the plaintiffs 
than what an extrapolation from the ``bellwether'' process suggests 
they are likely to receive through litigation. The Department continues 
to support the possibility of reasonable settlements, instead of 
litigation. Of course, any future settlement offers will be considered 
in light of the results of the ``bellwether'' process.
    Question 3. How much money has been reimbursed to contractors at 
Hanford for costs related to litigation since the year 2001? Please 
break those costs down by category, specifically, the amount the 
Department has reimbursed contractors and/or their law firms for 
downwinder litigation at Hanford, for whistleblower reprisal cases, and 
for worker compensation cases.
    Answer. Since the beginning of FY 2001 to date, contractor 
litigation costs of $19,037,408 has been incurred and reimbursed. By 
categories requested in the question, the costs are: DuPont-Hanford 
Downwinder ($7,758,488), whistleblower ($2,412,555), worker 
compensation ($28,811) and other litigation categories ($8,837,554).
    Question 4. How much money has the Department required contractors 
to repay after the contractors have lost whistleblower cases, complex-
wide? Please submit a site-by-site breakdown of those recovered costs 
over the past 10 years.
    Answer. The DOE complex is reviewing applicable cases for this 
answer. However, most of the whistleblower cases over the past ten 
years already have been reviewed and no instance of repayment by the 
contractor to DOE, after the loss of a whistleblower case, has yet been 
identified.
    Notably, there is no requirement that contractors ``repay'' the 
Department after an adverse judgment in whistleblower cases. Beginning 
in the mid-1990s, the Department included in many of its M&O contracts 
clauses governing the allowability of whistleblower defense costs which 
limited the reimbursement of legal fees to contractors once a 
contractor had been ruled against. In 1998, (63 FR 386, January 5, 
1998) the Department proposed to codify a contract clause that would 
make litigation, settlement, and judgment costs in whistleblower 
actions unallowable if an adverse determination was issued in the case. 
As the result of a number of factors, including a review of the 
practices of other government agencies with respect to whistleblower 
litigation costs and comments received in response to the initial 
proposal, the Department, a year later (64 FR 14206, March 24, 1999) 
issued an alternate proposal to adopt a cost principle that would 
provide contracting officers the flexibility to make allowability 
determinations on a case-by-case basis, after considering certain 
specified factors. One of the main dilemmas the Department confronted 
in assessing the merits of these two approaches was determining how to 
minimize contractor (and, therefore, DOE) litigation costs without 
sending the message that all whistleblower lawsuits, regardless of 
merit, should be settled short of litigation. In October, 2000, (65 FR 
62299) the Department published a final rule adopting the cost 
principle approach for whistleblower cases which is consistent with the 
approach used in evaluating the reimbursement of other contractor 
litigation.
    In January 2001, the Department also finalized a set of regulations 
entitled ``Contractor Legal Management Requirements'' at 10 CFR Part 
719, which was intended to facilitate control of Department and 
contractor legal costs, including litigation costs. The Department's 
approach enables weighing the costs of litigation against the costs and 
public policy impacts of compensating nonmeritorious claims. Under the 
Government-wide Federal Acquisition Regulation, reasonable and 
allocable legal costs incurred by a contractor in performance of 
contract work are allowable contract costs and are reimbursed by the 
Government, whether as direct costs or as part of general and 
administrative costs.
                                 ______
                                 
    Responses of James A. Rispoli to Questions From Senator Bingaman

    Question 1. Hanford Vitrification Plant. It is my understanding 
that the Hanford Vitrification Plant's total cost could now exceed $10 
billion and take an extra four years longer to complete. Can you please 
tell me what management actions you plan to implement to ensure that 
the plant is reviewed in a timely manner and its costs, schedule and 
baseline are regularly reported to Congress?
    Answer. The Department is taking a number of steps to provide 
appropriate reviews and oversight for this project. First, an 
independent review will be done to better determine how we got to this 
point with this contract since the time when the baseline was approved 
at $5.8 billion. The Department has already conducted four reviews of 
the project since this contract was awarded in 2000, including two by 
the Corps of Engineers. Secondly, going forward, the Department has 
arranged with the Corps to provide reviews of the seismic criteria, of 
the contractor's engineering design using the seismic criteria, and of 
the cost to complete the project once the engineering design to 
accommodate the seismic issues is completed. Additionally a dedicated 
headquarters team comprised of about six professionals in various 
disciplines will provide independent oversight and assessment of 
performance data from the contractor and the site. If I am confirmed, I 
would intend to personally conduct quarterly performance reviews, and 
review the monthly performance data and the independent assessment of 
it, consistent with Departmental requirements. The Department commits 
to formally advising the Congress of the new baseline once it has been 
independently reviewed and validated. Additionally, if I am confirmed, 
I would be willing to meet with the Committee and its members to keep 
you appraised of any issues that could impact the to-be-developed 
baseline.
    Question 2a. Waste Incidental to Reprocessing. Will the Department 
work cooperatively with the states that are not part of section 3116 of 
the National Defense Authorization Act for Fiscal Year 2005 regardless 
of the outcome of prior or other studies currently underway by the 
National Academies of Sciences on this subject, especially pertaining 
to fractions of residual high level waste contamination that may prove 
infeasible to remove from the tanks?
    Answer. If confirmed I am committed to working cooperatively with 
the States on all issues.
    Question 2b. Under section 3116 what actions has the Department 
taken to ensuring the Nuclear Regulatory Commission reviews the 
reclassification of high level waste?
    Answer. In response to your request the following information has 
been provided to me by the Environmental Management program. I have 
been informed that the draft 3116 Waste Determination for Salt Waste 
Disposal at the Savannah River Site (SRS) was completed and provided to 
the U.S. Nuclear Regulatory Commission for consultation on February 28, 
2005. The Department received requests for additional information in 
May and responded to those requests on July 1st and July 15th. Although 
not required by section 3116, DOE made this Determination available for 
public review and comment on April 1, 2005. DOE is currently preparing 
draft 3116 Determinations for waste residuals for two tanks at SRS and 
for the tank complex at the Idaho National Laboratory. These draft 
determinations will also be provided to the NRC for consultation when 
completed. Parenthetically, it should be noted that the Department has 
managed tank waste as high-level waste for operational purposes; the 
Department has never classified the waste in tanks as high level.
    Question 2c. Under section 3116, does the Department intend to ship 
to the Waste Isolation Pilot Plant any reclassified waste from the INL 
sodium bonded fuel tanks?
    Answer. I understand that the Department's preferred disposal path 
for this waste is disposal at WIPP. If confirmed I will ensure that all 
appropriate regulatory approvals are sought and received.
    Question 2d. A recent National Academies report recommended 
independent certification, not just review, of future high level waste 
reclassifications by agencies such as the Nuclear Regulatory 
Commission. Does the Department agree with the National Academies on 
this recommendation?
    Answer. At this time I am not personally familiar with the specific 
roles of each regulatory body involved. I am informed that the 
Department agrees with the approach to independent oversight of cleanup 
and disposal decisions for transuranic (TRU) and high-level waste (HLW) 
provided by the U.S. Environmental Protection Agency (EPA) and the 
State for TRU, and the U.S. Nuclear Regulatory Commission (NRC), EPA, 
the States, the Defense Nuclear Facilities Safety Board and the U.S. 
Department of Transportation in connection with HLW.
    Question 3a. Review of Waste Isolation Pilot Plant, New Mexico, 
Pursuant to Competitive Contract. What is the status of section 3145 of 
the National Defense Authorization Act for Fiscal Year 2005?
    Answer. I have been informed that the procurement is ongoing to 
establish an independent oversight group to replace the Environmental 
Evaluation Group. A presolicitation synopsis announcement regarding the 
upcoming procurement was posted in FedBizOps on June 24, 2005. The 
Department is currently working to develop a Request for Proposals.
    Question 3b. What has the Department done to preserve the records 
of the former Environmental Evaluation Group before their contract was 
terminated in fiscal year 2004?
    Answer. I have been informed that in May 2004, records kept at both 
the Albuquerque and Carlsbad offices of EEG were dispositioned and 
placed in storage.
    Question 4. Waste Isolation Pilot Plant, WIPP. What is the 
Department's opinion on disposing of non-defense related transuranic 
waste or Greater Than Class C Waste at WIPP?
    Answer. I understand that the Compliance Recertification 
Application submitted by the Department to the Environmental Protection 
Agency in March 2004 includes the inventory of TRU that the Department 
is proposing for disposal at WIPP. That inventory does not include non-
defense generated transuranic waste or Greater Than Class C Waste.
    I further understand that the Department issued a Request for 
Information which seeks industry input to identify commercial 
capability for the disposal of Greater-Than-Class C low-level 
radioactive waste.
    Question 5. TRUPAC III TRU Containers. What is the status of the 
TRUPAC III container license before the Nuclear Regulatory Commission?
    Answer. I understand that the Department has contracted to build 
two test units, with planned completion and testing by summer of 2006. 
After successful completion of the tests and subsequent analyses, the 
Department will submit an application to the Nuclear Regulatory 
Commission.
    Question 6. ARROW PAK TRU Containers. What is the status of the 
Department's determination on the use of the Arrow Pak container to 
ship TRU waste?
    Answer. I understand that the ARROW-PAK Safety Analysis Review 
application addendum was submitted to the Nuclear Regulatory Commission 
for review on January 31, 2005. I am also informed that a permit 
modification will be needed to WIPP's Hazardous Waste Permit before the 
ARROW-PAK can be utilized.
    Responses of James A. Rispoli to Questions From Senator Cantwell
    Question 1. Are you committed to working collaboratively with 
Washington State regulators, the affected communities' and worker's 
representatives, and the Washington State Congressional delegation to 
ensure that the cleanup is fully funded and completed as soon as 
possible in a manner that ensures the protection of the workers, the 
public, and the environment?
    Answer. Senator Cantwell, I am absolutely committed to working 
collaboratively with the regulators and the other stakeholders you 
mention to complete this important work as soon as possible to protect 
the workers, the public and the environment. If I am confirmed, I will 
certainly be fully engaged in the budget process going forward to 
address the part of your question related to funding, and I will look 
forward to the opportunity to work with you, the committee, and the 
Congress in this regard.
    Question 2. Since the mid 1960s, Hanford has had more contractor 
changes than all of the other DOE sites combined. Is there a way to 
bring more stability to Hanford contracts and stop, or at least slow, 
Hanford contractor changeover?
    Answer. In my present position in the Department, I have been 
engaged in acquisition strategies for large and critical projects. 
There are many factors in the evaluation of these strategies, and 
certainly stability provided by contractors whose performance is 
noteworthy is an important factor. If I am confirmed, I will take a 
personal interest in the development of the acquisition strategy for 
all the activities at this site, and I would be happy to discuss this 
issue with you and your staff at that point.
    Question 3. At Hanford there is an excellent world-class facility 
called The Volpentest HAMMER Training and Education Center at Hanford, 
built by DOE to ensure the health and safety of Hanford cleanup workers 
and emergency responders. HAMMER's unique hands-on ``Training as Real 
as It Gets'' is essential to the safe, cost effective and successful 
completion of Hanford cleanup. Further, as the cleanup workforce 
decreases, more of HAMMER's capabilities will become available for 
other DOE missions, such as energy assurance and hydrogen safety, and 
for training law enforcement, security, emergency response, and other 
homeland security-related personnel. Can EM maximize its utilization of 
HAMMER, and help build the base for HAMMER's future use in other 
necessary government programs?
    Answer. I understand that DOE uses the Volpentest Hazardous 
Materials Management and Emergency Response Training Center (HAMMER) 
facility to provide hands-on safety training for workers involved in 
the Hanford cleanup mission and considers HAMMER's role in Hanford's 
safe operation to be vital. I also understand that HAMMER is already 
involved in the training of fire, law enforcement, Customs and Border 
Protection, security, emergency medical, and other emergency response 
personnel for a wide-spectrum of regional and Federal agencies on a 
full cost recovery basis. I also think it makes sense to cooperate with 
the Department of Homeland Security (DHS) to develop a strategy to 
ensure that HAMMER remains available to meet its growing training 
needs.
    Question 4. Another major concern on the part of many of my 
constituents is whether DOE is implementing the President's directive 
to increase government procurements with small business. What will you 
do to improve and expand DOE procurements that benefit small 
businesses, particularly those based in the local communities most 
affected by contamination and which will suffer severe economic impacts 
when cleanup is done if local, sustainable businesses are not 
developed?
    Answer. As you know, the Environmental Management sites have a 
strong program with regard to small business. I have long supported the 
advancement and development of small businesses both in my prior 
Governmental positions, and in the private sector where my firm teamed 
with small businesses. I would intend to bring my support of 
advancement for small businesses to this position, if I am confirmed.
    Question 5. I am sure we can all agree that Environmental 
Management's primary responsibility is to clean up our nation's nuclear 
defense legacy sites. Do you believe that DOE has any responsibility 
beyond cleanup to the communities where the sites are located? In other 
words, to what extent do you believe DOE should share in the 
responsibility to restore the economies of the areas affected once 
cleanup is finished?
    Answer. The Department has a history of working with community 
based redevelopment authorities. The Hanford community reuse 
organization (Tri-City Industrial Development Council) has received 
over $22.9 million in economic development funds. In addition, they 
have a very strong personal property transfer program that utilizes 
Hanford's excess property. In my present position in the Department I 
have been involved with certain real estate transactions that are 
designed to assist communities in this transition progress. If I am 
confirmed, I would continue my strong advocacy of real and personal 
property transfer programs with the managers of all EM sites, as part 
of the Department's commitment to ease the transitions in the local 
economies affected by site closures.
    Question 6. What specific parts of the Waste Treatment Plant 
project will need to be altered, reconstructed, or redesigned due to 
the seismic and the other safety-related upgrades?
    Answer. It is my understanding from my reviews of documents in my 
present capacity that the primary impacts attributed to the seismic 
issues will be in the High Level Waste plant (i.e. the vitrification 
plant for High Level Waste) and in the Pre-Treatment Facility. I should 
also mention that the Department has made arrangements with the Corps 
of Engineers to review the seismic criteria, as well as the engineering 
related to the seismic design in these facilities, to be sure that the 
design and construction will provide appropriate safety for the workers 
and the community.
    Question 7. I understand that the Defense Nuclear Facilities Safety 
Board may have corresponded with the Department of Energy about their 
concerns related to the seismic stability of the Waste Treatment Plant 
at the Hanford site in 2002 or earlier. Please inform me if this is 
true and provide me with a copy of any correspondence to or from the 
Department of Energy to the DNFSB, the Nuclear Regulatory Commission, 
or other executive branch agencies on this matter.
    Answer. I understand there is ongoing correspondence with the 
Defense Nuclear Facilities Safety Board (DNFSB) regarding Waste 
Treatment Plant seismic design basis concerns. I will ensure that the 
Department provides you with copies of correspondence with the DNFSB 
concerning the seismic issue. This will be provided to you under 
separate cover.
    Question 8. It is my understanding that DOE regulates the design 
and construction of the Waste Treatment Plant primarily through its 
system of Orders. DOE orders are not legally binding, except as 
contract clauses. What Orders or contract clauses regarding safety has 
DOE changed since 2001 for the Waste Treatment Plant?
    Answer. I am informed that Section J, Attachment E of the Waste 
Treatment Plant contract lists the applicable DOE Standards, Directives 
and Orders for Environmental, Safety and Health (ES&H) with the latest 
revised dates. In most cases, DOE documents as reflected in the 
contract related to ES&H have been revised since 2001 and are reviewed 
and updated as needed on an ongoing basis.
    Question 9. In response to questions from members of the Committee, 
you said that you were committed to meeting long term milestones of the 
Tri-Party Agreement. Can you please specify if you are also committed 
to meeting interim milestones and working within the framework of the 
Tri-Party Agreement?
    Answer. I am committed to meeting legally applicable milestones the 
Department has agreed to, including those in the Tri-Party Agreement. 
If I am confirmed, I would be in a position to look more closely at the 
specifics of the interim milestones.
    Question 10. Given your previous position within the Department, I 
hope you can provide me some insight on the developments with the 
Hanford Waste Treatment Plant. When will the Department of Energy 
release its revised cost estimate and schedule to complete the Hanford 
Waste Treatment Plant?
    Answer. At the present time, the contractor has been asked to 
develop an estimate to complete all the work at the Hanford Waste 
Treatment Plant. There are several steps the Department must undertake 
to review the contractor's effort and establish a revised cost estimate 
and schedule, including a U.S. Army Corps of Engineers' review of 
seismic criteria, the contractor's design, and cost to complete the 
facility. As the Corps conducts its review, the Department will be able 
to provide you with a release date.
    Responses of James A. Rispoli to Questions From Senator Salazar
    Question 1. Institutional Control Laws. The Department will soon 
complete the environmental cleanup of its Rocky Flats plant west of 
Denver. In general, the cleanup has progressed well. But, as at many 
contaminated sites being cleaned up across the country, some 
contamination will remain in the ground. A part of the site will be 
designated a National Wildlife Refuge. It will be necessary, therefore, 
to impose certain restrictions on land use to ensure that the remedy 
remains protective of human health.
    Because existing legal mechanisms to restrict land use are not 
adequate for this purpose, many states have adopted or are adopting 
legislation to create enforceable use restrictions, or ``institutional 
controls.'' In 2001, the Colorado Attorney General's office drafted and 
sponsored such legislation, and, with the support of the Colorado 
Department of Public Health and Environment, the General Assembly 
passed the legislation unanimously. Governor Owens signed it into law.
    Colorado's institutional control legislation enjoyed strong support 
from both industry and the environmental community, because it reduces 
cleanup costs and it makes cleanups safer and more reliable. Colorado's 
legislation served as the model for the Uniform Environmental Covenants 
Act, which is now being considered in a number of states across the 
country.
    Federal agencies were among the most outspoken supporters of the 
legislation, urging EPA and the states to rely on institutional 
controls to reduce cleanup costs. Yet, now that states are moving to 
create enforceable, effective institutional control laws, federal 
agencies, including DOE, have refused to comply with these laws. At 
Rocky Flats, for example, DOE, the State of Colorado, and EPA are in 
general agreement on the use restrictions that should apply to the 
site. But DOE has refused to put those restrictions in an environmental 
covenant, as required under state law. DOE has refused to comply with 
other states' institutional control laws as well. This refusal has 
raised serious questions about the long-term reliability of the cleanup 
now underway at DOE facilities across the country.
    What steps will you take to ensure that the Department of Energy 
will comply with state institutional control laws?
    Answer. If confirmed, I will ensure that the Department complies 
with applicable legal commitments. While I am not familiar with these 
specific laws, if confirmed, I will look into their applications by 
DOE.
    Question 2. Acquisition of Mineral Interests at Rocky Flats. 
Implementation of the statutory requirement for creation of a National 
Wildlife Refuge at Rocky Flats is being complicated by privately owned 
mineral interests in sand and gravel deposits at the Rocky Flats site. 
The U.S. Fish and Wildlife Service is reluctant to take responsibility 
for managing lands subject to such mineral interests because current or 
future mining activities would be inconsistent with the management of a 
National Wildlife Refuge.
    I am working with the Senior Senator from Colorado, Senator Allard, 
on legislation to authorize the Department of Energy to spend up to $10 
million to acquire these mineral interests, in exchange for a release 
of all Natural Resource Damage claims by the NRD Trustees at Rocky 
Flats.
    As Assistant Secretary for Environmental Management, will you 
formally express your official support for this legislation?
    Answer. Neither I, if confirmed, nor the Department are able at 
this time to take an official position on Senator Allard's legislation. 
Because the legislation would affect several other agencies, in 
addition to the Department of Energy, the Department is unable to take 
an official position until an inter-agency review is complete. The 
inter-agency review process is currently underway. That said, the 
Department recognizes the importance of resolving the issue of 
privately owned mineral rights at the Rocky Flats site. If confirmed, I 
am committed to working with other affected agencies, OMB, you and 
Senator Allard to achieve a prompt and effective resolution.
    Question 3. Rocky Flats Worker Retirement Benefits. The early 
completion of the cleanup at Rocky Flats is producing substantial 
savings, but also may result in the loss of retirement benefits for 
many long term workers. Many workers who would have qualified for 
retirement benefits if the cleanup continued until the expected 
completion date of December, 2006, will not reach the necessary 
combination of age and years of service due to the early completion. 
These include Cold War Veterans who produced the nuclear weapons that 
brought the Soviet Union to its knees, who risked their own health and 
safety to close down and clean up Rocky Flats, and who worked long 
hours to save American taxpayers hundreds of millions of dollars. These 
dedicated and patriotic workers are now at risk of losing their own 
financial and medical security.
    I am working with Senator Allard on legislation to authorize DOE to 
expend $15 million to provide retirement benefits to those Rocky Flats 
workers who would have earned these benefits had the cleanup been 
completed on December 15, 2006.
    Fair treatment of the Rocky Flats workers is not only the right 
thing to do, but it will send an important message to other nuclear 
workers who provide essential assistance in the cleanup of other 
nuclear sites around the country: We will be telling these workers, 
``If you continue your dedicated service and if you work to save 
American taxpayers' dollars through your expertise and hard work, then 
we will take care of you.'' I urge you and the Department of Energy to 
get behind this legislation. It is good policy and it will produce long 
term savings many times more than the expense.
    Will you, as Assistant Secretary for Environmental Management, 
support this legislation to provide retirement benefits for Rocky Flats 
workers?
    Answer. I would like to begin by thanking, on behalf of the 
Department, the employees at Rocky Flats and in particular the members 
of the United Steelworkers of America who have worked diligently for 
many decades to assure the nation's success with our effort during the 
Cold War. Without their efforts, the Department would not have 
succeeded in its important contribution to protect our country during 
that important period of our history.
    I understand that early closure of the site was anticipated during 
the negotiation of the Steelworkers' collective bargaining agreement 
(CBA) in 2000 and was a key subject of those negotiations. Because of 
concerns of possible lost income, I understand the Department 
negotiated an agreement with the contractor to provide very substantial 
benefits in lieu of providing early retirement pension and retiree 
medical benefits to employees.
    If the legislation passes, my understanding is that it would 
require changes to the present collective bargaining agreement which 
could impact how closure activities are completed and their associated 
costs. If confirmed, I will evaluate this legislation and study the CBA 
from 2000 since I am personally not familiar with either at this time. 
In addition, this legislation also must undergo an OMB-led review 
before the Administration can take an official position.
    Question 4a. Current Financial Projections for Rocky Flats Cleanup. 
Please provide an analysis of the savings to the United States Treasury 
as a result of the expedited cleanup of Rocky Flats.
    Answer. I have requested this information from the Environmental 
Management program and have addressed both (a) and (b) under (b) below.
    Question 4b. Please be sure that this analysis includes a detailed 
statement of the original projected cost of the Rocky Flats cleanup as 
well as the current projected cost through completion of the cleanup.
    Answer. The following are projections of savings to the government 
at different times over the life of the Rocky Flats cleanup as to the 
cost of the site cleanup and the difference between those estimates and 
the current projection.

  <bullet> Current projection: Approximately $7 billion (1995-2005)
  <bullet> 1995 estimate: $36 billion (1995-2065), as cited in the 1995 
        Baseline Environmental Management Report
  <bullet> Projected difference: $29 billion; 60 years earlier
  <bullet> Estimate at the signing of the Rocky Flats Closure Contract 
        (2000-2006): Approximately $4.3 billion.
  <bullet> Current projection for the Rocky Flats Closure Contract 
        (2000-2005): Approximately $3.95 billion
  <bullet> Projected difference: $0.350 billion; 1 year earlier

    Question 4c. Please also provide me with a report on the total 
amount appropriated for the cleanup of Rocky Flats for FY 2005 and the 
current projection for actual expenditures (obligations) through the 
end of FY 2005.
    Answer. Total amount appropriated for FY2005: $662 million (this 
includes safeguards and security, program direction, community and 
regulatory support, rescission and other general reductions). The 
Environmental Management program also expects to carry over more than 
$41 million of prior year money at Rocky Flats. This results in $703 
million total available funds to be costed.
       Reponse of James A. Rispoli to Question From Senator Craig
    Question 1. I understand that the Department recently completed a 
congressionally requested analysis of the Army's experience with a 
promising and innovative contract management concept, guaranteed fixed 
price remediation (GFPR).
    As you likely know, GFPR contracting involves a performance based 
contract approach which reduces cost risk, expedited environmental 
cleanup projects, and more importantly, transfers performance risk from 
the government to contractors and their insurers.
    The recently completed DOE analysis cited the U.S. Army's 
experience with this form of contracting, noting significant cost and 
time savings to the government. While the DOE appropriately concluded 
that the use of GFPR would not work on all DOE sites, it did cite that 
the use of GFPR may be appropriate in certain circumstances and offer 
cost and remediation benefits.
    My question is: Are you familiar with this analysis and/or the 
Army's experience? Additionally, would you be willing to consider 
implementing a pilot program similar to the one used by the Army for 
DOE sites where this type of remediation contracting would be 
appropriate?
    Answer. I have been briefed on the Department's report on 
guaranteed fixed price remediation (GFPR) contracts and the analysis of 
the U.S. Army's experience with GFPR. This fits well with my own belief 
in the importance of having an acquisition strategy for major projects. 
To develop an acquisition strategy, approaches such as the Army's GFPR 
contracts would be included as part of the evaluation of alternatives. 
If confirmed, I would consider initiating a pilot program to determine 
if GFPR could be cost effectively implemented.
                                 ______
                                 
     Responses of Jill Lea Sigal to Questions From Senator Cantwell

    Question 1. I am aware that you called my office and spoke to my 
staff after the regular close of business on June 28th to outline a new 
plan from the Energy Secretary regarding future steps in the 
construction of the Hanford Waste Treatment Plant. My staff has asked 
you for more specificity on the plan, including a full explanation of 
the structure of the workforce and a better understanding of the 
Department's commitment to the construction of the facility.
    Can you provide me as many specifics as possible on the plan and 
would you be prepared to brief me or my staff on those specifics before 
your nomination is voted out of the Committee? When can I expect 
answers to my office's inquiry?
    Answer. On June 28 I discussed with your staff and other interested 
parties Secretary Bodman's path forward concerning the Waste Treatment 
Plant (WTP). I have scheduled a briefing for your staff on the WTP for 
July 18, 2005. We will continue to provide updated information on the 
construction of the Waste Treatment Plant as it is available. On July 
13 the Environmental Management program followed-up with written 
direction to the Office of River Protection (ORP) to implement the path 
forward on the WTP. This memorandum has been sent to your office and is 
also enclosed herein.
    Question 2a. Last year, it was reported that the Department of 
Energy played a role in drafting legislation that was included in the 
Fiscal Year 2005 Department of Defense Authorization Bill, related to 
the issue of Waste Incidental to Reprocessing. As originally drafted, 
this legislation, would have included Washington state, potentially 
influenced then on-going litigation, and would have had potentially 
dramatic impacts on the implementation of the Nuclear Waste Policy Act 
at sites throughout the DOE complex. All of this would have occurred 
without a legislative hearing on the substance of the DOE proposal.
    Are you aware that when the WIR-related provision included in last 
year's Defense Authorization bill was introduced as a stand-alone piece 
of legislation (S. 2457), the Senate parliamentarian referred it to the 
Energy and Natural Resources Committee?
    Answer. Yes, my recollection is that your legislation was referred 
to the Energy and Natural Resources Committee.
    Question 2b. Based on this referral, what Committee do you believe 
is the proper body to consider similar legislation in the future?
    Answer. It is my understanding that the Senate Parliamentarian has 
sole responsibility to determine committee referrals of proposed 
legislation. I believe it is important for me to respect that process.
    Question 2c. In the future, do you pledge to work cooperatively 
with this Committee to consider any and all legislative proposals 
related to the issue of Waste Incidental to Reprocessing?
    Answer. Yes, I pledge to work cooperatively with this Committee and 
any other Committee which may be determined to have jurisdiction over 
this issue.
    Question 3a. At a June 15, 2005 annual ``State of the Site'' 
meeting at Hanford, some Hanford workers criticized the Department's 
handling of worker compensation claims at Hanford, particularly 
singling out the CCSI, the Department's claims processing contractor, 
for delays in handling their claims, or denying state workers' 
compensation despite the diagnosis of a qualified medical practitioner. 
Some find themselves too ill or too injured to work, and have to fight 
their claims in contested hearings at great personal cost.
    Will the Department of Energy investigate these claims?
    Answer. I am not personally familiar with this issue, however I 
have been informed that the Department of Energy is planning to 
assemble an investigative team of Independent Oversight and Performance 
Assurance (OA) and Environment, Safety and Health (EH) personnel to 
examine these claims. The team will travel to Hanford to review written 
records and conduct interviews with a sample of Hanford worker 
compensation claimants to assess whether CCSI carries out its contract 
obligations in an appropriate manner.
    Question 3b. If problems with CCSI are found, what will the 
Department due to address these issues?
    Answer. It is my understanding that if the investigation finds 
evidence that CCSI has been in violation of their contractual 
agreement, infractions will be reported to the contracting officer in 
the DOE field office at Hanford, who will take appropriate action.
    Question 3c. Are you open to including other federal agencies to 
sending experts to participate in your investigation, such as the 
Washington State Department of Labor and Industries or the U.S. 
Department of Labor?
    Answer. The DOE is open to including other federal agencies such as 
the U.S. Department of Labor in the investigation.


</pre></body></html>
